                 U.S. Department of Agriculture

                    Office of Inspector General
                               Northeast Region




        Audit Report

  Food and Nutrition Service
     Financial Statements
for Fiscal Years 2006 and 2005




                       Report No. 27401-31-HY
                               November 2006
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250


November 8, 2006

REPLY TO
ATTN OF:      27401-31-HY

TO:           Nancy Montanez Johner
              Under Secretary
               for Food, Nutrition, and Consumer Services

ATTN:         Gary Maupin
              Deputy Administrator
              Food and Nutrition Service

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Food and Nutrition Service (FNS) Financial Statements for Fiscal Years 2006 and
              2005


This report presents the results of our audit of FNS’ financial statements for the fiscal years
ending September 30, 2006 and 2005. The report contains an unqualified opinion and the results
of our assessment of FNS’ internal control over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report.

We appreciate the courtesies and cooperation extended to us during the audit.
Executive Summary
Food and Nutrition Service Financial Statements for Fiscal Years 2006 and 2005
(Report No. 27401-31-HY)

Purpose             Our audit objectives were to determine whether (1) the financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position; net costs; changes in net position; budgetary resources; and
                    reconciliation of net costs to budgetary obligations, (2) the internal
                    control objectives were met, and (3) the Food and Nutrition Service
                    (FNS) complied with laws and regulations for those transactions and
                    events that could have a material effect on the financial statements.
                    We also determined that the information in the Management Discussion
                    and Analysis was materially consistent with the information in the
                    financial statements.

                    We conducted our audit at the FNS National Office in Alexandria,
                    Virginia. We also performed site visits to the Federal Reserve Bank of
                    Richmond and obtained data from selected FNS regional offices.

Results in Brief     In our opinion, FNS’ comparative financial statements for fiscal years
                     2006 and 2005, including the accompanying notes, present fairly in all
                     material respects, the assets, liabilities, and net position of FNS, as of
                     September 30, 2006 and 2005; and its net costs, changes in net
                     position, budgetary resources, and reconciliations of net costs to
                     budgetary obligations for the years then ended, in conformity with
                     accounting principles generally accepted in the United States of
                     America.

                     In our “Report on Compliance with Laws and Regulations,” we
                     reported FNS’ core financial management system is in substantial
                     compliance with the Federal Financial Management Improvement Act
                     of 1996. We did report that the agency was not in full compliance
                     with the Improper Payments Information Act of 2002 (IPIA).

Key
Recommendations     We recommended that FNS disclose in its Management Discussion and
                    Analysis (MDA) the status of its compliance with the IPIA.

Agency Position      FNS officials concurred with our recommendation. The MDA
                     prepared by FNS discusses its IPIA status and the actions being taken
                     to bring FNS into full compliance with the statute.




USDA/OIG-A/27401-31-HY                                                                 Page i
OIG Position       Since FNS disclosed the status of its IPIA compliance, we are making
                   no additional recommendations. An additional response is not
                   required.




USDA/OIG-A/27401-31-HY                                                         Page ii
Abbreviations Used in This Report

FNS               Food and Nutrition Service
IPIA              Improper Payments Information Act
MDA               Management Discussion and Analysis
OMB               Office of Management and Budget
RSSI              Required Supplemental Stewardship Information




USDA/OIG-A/27401-31-HY                                            Page iii
Table of Contents

Executive Summary ....................................................................................................................... i

Report of the Office of Inspector General .................................................................................. 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting... 3

Report of the Office of Inspector General on Compliance with Laws and Regulations ........ 5

Exhibit A –Financial Statements ................................................................................................. 7




USDA/OIG-A/27401-31-HY                                                                                                        Page iv
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General

To:    Nancy Montanez Johner
       Under Secretary
        for Food, Nutrition and Consumer Services

We have audited the accompanying balance sheet of the Food and Nutrition Service (FNS) as of
September 30, 2006 and 2005, and the related statements of net cost, changes in net position, and
financing, and the combined statement of budgetary resources (hereinafter referred to as the
“financial statements,” previously referred to as the “consolidated financial statements”) for the
fiscal years then ended. The financial statements are the responsibility of FNS’ management.
Our responsibility is to express an opinion on the financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.”
Those standards and OMB Bulletin No. 06-03 require that we plan and perform the audit to
obtain reasonable assurance that the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of FNS as of September 30, 2006 and 2005; and its net cost, changes in net
position, reconciliation of net cost to budgetary obligations, and budgetary resources for the
years then ended, in conformity with accounting principles generally accepted in the United
States of America.

The information in the Management’s Discussion and Analysis is not a required part of the
financial statements, but is supplemental information required by accounting principles generally
accepted in the United States of America or by OMB Circular No. A-136, “Financial Reporting
Requirements.” We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this
information. We did not audit this information and, accordingly, we express no opinion on it.

We have also issued reports on our consideration of FNS’ internal control over financial
reporting and its compliance with certain provisions of laws and regulations. These reports are
an integral part of an audit performed in accordance with Government Auditing Standards, and,
USDA/OIG-A/27401-31-HY                                                                     Page 1
in considering the results of the audit, these reports should be read in conjunction with this
report. Our report on compliance with laws and regulations disclosed that FNS was not in full
compliance with the Improper Payments Information Act of 2002.

This report is intended solely for the information of the management of FNS, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

November 8, 2006




USDA/OIG-A/27401-31-HY                                                                 Page 2
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Nancy Montanez Johner
       Under Secretary
        for Food, Nutrition and Consumer Services

We have audited the accompanying balance sheet of the Food and Nutrition Service (FNS) as of
September 30, 2006 and 2005, and the related statements of net cost, changes in net position, and
financing, and the combined statement of budgetary resources (hereinafter referred to as the
“financial statements,” previously referred to as the “consolidated financial statements”), and
have issued our report thereon dated November 8, 2006. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.”

In planning and performing our audit, we considered FNS’ internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 06-03 and
Government Auditing Standards. We did not test all internal controls as defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to provide
assurance on FNS’ internal control. Consequently, we do not provide an opinion on internal
control over financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation that, in our judgment, could adversely affect the agency’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the
financial statements. Material weaknesses are reportable conditions in which the design or
operation of one or more internal control components do not reduce to a relatively low level the
risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal

USDA/OIG-A/27401-31-HY                                                                     Page 3
course of performing their assigned functions. Because of inherent limitations in any internal
control, misstatements due to error or fraud may occur and not be detected.

Additional Other Procedures

As required by OMB Bulletin No. 06-03, we considered the FNS’ internal control over Required
Supplemental Stewardship Information (RSSI) by obtaining an understanding of the internal
control, determining whether these internal controls had been placed in operation, assessing
control risk, and performing tests of controls. Our procedures were not designed to provide
assurance on internal control over such RSSI; accordingly, we do not provide an opinion on such
controls.

As further required by OMB Bulletin No. 06-03, with respect to internal control related to
performance measures determined by management to be key and reported in the Management
Discussion and Analysis, we obtained an understanding of the design of significant internal
controls relating to the existence and completeness assertions and determined whether they have
been placed in operation. Our procedures were not designed to provide assurance on internal
control over reported performance measures; accordingly, we do not provide an opinion on such
controls.

This report is intended solely for the information and use of the management of FNS, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

November 8, 2006




USDA/OIG-A/27401-31-HY                                                                 Page 4
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations

To:    Nancy Montanez Johner
       Under Secretary
        for Food, Nutrition and Consumer Services

We have audited the accompanying balance sheet of the Food and Nutrition Service (FNS) as of
September 30, 2006 and 2005, and the related statements of net cost, changes in net position, and
financing, and the combined statement of budgetary resources for the fiscal years ended
(hereinafter referred to as the “financial statements,” previously referred to as the “consolidated
financial statements”), and have issued our report thereon dated November 8, 2006. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.”

The management of the FNS is responsible for complying with laws and regulations applicable
to it. As part of obtaining reasonable assurance about whether the financial statements are free
of material misstatement, we performed tests of FNS’ compliance with certain provisions of
laws, regulations, and governmentwide policy requirements, noncompliance with which could
have a direct and material effect on the determination of the financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 06-03, including
certain requirements referred to in the Federal Financial Management Improvement Act of
1996 (FFMIA). We limited our tests of compliance to the provisions described in the preceding
sentence and did not test compliance with all laws and regulations applicable to FNS. However,
providing an opinion on compliance with laws and regulations was not an objective of our audit,
and accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of reportable noncompliance with
other laws and regulations discussed in the second paragraph of this report, with the exception of
the Improper Payment Information Act of 2002 (IPIA) that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 06-03. Additionally, the results of our
tests disclosed no instances in which FNS’ financial management systems did not substantially
comply with FFMIA. We did observe that FNS was not in full compliance with requirements of
the IPIA regarding the design of program internal controls relating to reporting improper
payments. The IPIA requires that all programs susceptible to significant improper payments
should report an estimate of the payments. FNS has not reported estimated payment errors for
the National School Lunch Program; School Breakfast Program; and Special Supplemental
USDA/OIG-A/27401-31-HY                                                                      Page 5
Nutrition Program for Woman, Infants, and Children; and the Child and Adult Care Food
Program. FNS is working on developing methodologies to provide accurate estimates of
improper payments for these programs in accordance with the agreement with OMB. We
recommended that FNS disclose its compliance status. FNS officials agreed and included this
information in Footnote 4 of the Management Discussion and Analysis.

This report is intended solely for the information and use of the management of FNS, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

November 8, 2006




USDA/OIG-A/27401-31-HY                                                                  Page 6
Exhibit A –Financial Statements




                   USDA
         FOOD AND NUTRITION SERVICE

              Fiscal Years 2006 and 2005

              (PREPARED BY
        FOOD AND NUTRITION SERVICE)




USDA/OIG-A/27401-31-HY                     Page 7
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                       Management Discussion and Analysis




                         MANAGEMENT DISCUSSION AND ANALYSIS

Section 1. Mission, Organizational Structure and Programs

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA). FNS was
established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant to the authority
contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its mission is to
increase food security and reduce hunger in partnership with cooperating organizations by providing children and
low-income people access to food, a healthful diet, and nutrition education in a manner that supports American
agriculture and inspires public confidence.

The FNS appropriation for administrative funds annually includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research to the
nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination, and nutrition
education. CNPP develops integrated nutrition research, education, and promotion programs and provides science-
based dietary guidance.

FNS Organization Chart




                                                      Page 1
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                         Management Discussion and Analysis




Descriptions of FNS Programs:

Beginning with the National School Lunch Program in 1946, the Nation has gradually built an array of nutrition
assistance programs designed to help the most vulnerable populations meet their food needs. Together, the current
programs form a nationwide safety net supporting low-income families and individuals in their efforts to escape
food insecurity and hunger and achieve healthy, nutritious diets.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local organizations that
interact directly with program participants. States voluntarily enter into agreements with the Federal government to
operate programs according to Federal standards in exchange for program funds that cover all benefit costs, as well
as a significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national program
standards for eligibility and benefits, providing Federal funding to State and local partners, and monitoring and
evaluating to make sure that program structures and policies are properly implemented and effective in meeting
program missions. State and local organizations are responsible for delivering benefits efficiently, effectively, and in
a manner consistent with national requirements.

FNS nutrition assistance programs work both individually and in concert with one another to improve the Nation’s
nutrition and health by improving the diets of children and low-income households. Currently, the programs
administered by FNS touch the lives of one in five Americans over the course of a year.

•   Food Stamp Program (FSP): Authorized by the Food Stamp Act of 1977, the FSP serves as the centerpiece and
    primary source of nutrition assistance for over 26 million low-income people. It enables participants, over 50
    percent are children, to improve their diets by increasing food purchasing power using benefits that are
    redeemed at retail grocery stores across the country. State agencies are responsible for the administration of the
    program according to national eligibility and benefit standards set by Federal law and regulations. Benefits are
    100 percent Federally-financed, while administrative costs are shared between the Federal and State
    governments.

    The FSP provides the basic nutrition assistance benefit for low-income people in 50 States and the District of
    Columbia. Puerto Rico, the Commonwealth of the Northern Mariana Islands, and American Samoa receive
    grant funds with which to provide food and nutrition assistance in lieu of the FSP.

•   Child Nutrition (CN) Programs: The National School Lunch (NSLP), School Breakfast (SBP), Special Milk
    (SMP), Child and Adult Care (CACFP), and Summer Food Service (SFSP) Programs provide reimbursement to
    State and local governments for nutritious meals and snacks served to approximately 30 million children in
    schools, child care institutions, adult day care centers, and after-school care programs. FNS provides cash and
    commodities on a per-meal basis to offset the cost of food service at the local level as well as offset a significant
    portion of State and local administrative expense and provides training, technical assistance, and nutrition
    education. Payments are substantially higher for meals served free or at a reduced price to children from low-
    income families.

•   Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum women, infants
    and children up to five years of age. It provides participants monthly supplemental food packages targeted to
    their dietary needs, nutrition education, and referrals to a range of health and social services – benefits that
    promote a healthy pregnancy for mothers and a healthy start for their children. Appropriated funds are provided
    to States for food packages and nutrition services and administration for the program; States operate the
    program pursuant to plans approved by FNS. WIC is augmented in some localities by the Farmers’ Market
    Nutrition Program, which provides fresh produce to WIC participants.



                                                        Page 2
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




•   Food Distribution Programs include:

    •   The Emergency Food Assistance Program (TEFAP): This program supports the emergency food
        organization network by distributing Federally-purchased commodities for use by emergency feeding
        organizations including soup kitchens, food recovery organizations, and food banks. TEFAP also provides
        administrative funds to defray costs associated with processing, repackaging, storage, and distribution of
        Federal and privately donated commodities. The allocation of both Federal commodities and
        administrative grants to States is based on a formula that considers the States’ unemployment levels and the
        number of persons with income below the poverty level.

    •   Food Distribution Program on Indian Reservations (FDPIR): The Food Stamp Act of 1977 authorized the
        distribution of agricultural commodities to eligible needy persons residing on or near Indian reservations.
        FDPIR serves as an alternative to the FSP for Indian households on or near reservations. Indian Tribal
        Organizations (ITOs) that operate the program are responsible for certifying recipient eligibility, nutrition
        education, local warehousing and transportation of commodities, distribution of commodities to recipient
        households, and program integrity. The Federal government pays 100 percent of the cost of commodities
        distributed through the program, as well as cash payments for administrative expenses.

    •   Commodity Supplemental Food Program (CSFP): This program provides foods purchased by USDA to
        low-income infants and children up to age six, low-income pregnant, postpartum and breastfeeding women,
        and to low-income senior citizens who are residing in approved project areas. In recent years, there has
        been a shift towards low-income elderly in this program; in FY 2005, elderly participation comprised
        approximately 90 percent of total participation. Foods are distributed through State agencies to supplement
        food acquired by recipients from other sources. The CSFP is operated as a Federal/State partnership under
        agreements between FNS and State health care, agricultural or education agencies. Currently, 32 States,
        the District of Columbia, and two Indian reservations operate CSFP.

•   Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-income seniors
    that can be exchanged for fresh, nutritious, unprepared, locally grown fruits, vegetables and herbs at farmers’
    markets, roadside stands, and community-supported agriculture programs.

•   Pacific Island Assistance: This program involves food assistance to the nuclear-affected zones of the Republic
    of the Marshall Islands. It takes the form of commodities and administrative funds.

•   Disaster Assistance: Disaster Relief funds are provided for use in non-Presidentially declared disasters.

FNS Staff:

The public servants of FNS are an important resource for advancing the key outcomes sought through the nutrition
assistance programs. The agency staff serves to ensure and leverage the effective use of the other program
appropriations.

FNS staff is funded primarily out of the Nutrition Programs Administration account, which represents approximately
one-third of one percent of the total FNS budget. The agency employment level represents less than two percent of
the total employment within USDA and is similarly small in proportion to the total State-level staff needed to
operate the programs. The agency employs people from a variety of disciplines, including policy and management
analysts, nutritionists, computer and communication experts, accountants, investigators, and program evaluators.
Because of the small size of the agency’s staff relative to the resources it manages, FNS has created clear and
specific performance measures and must focus its management efforts in a limited number of high-priority areas.




                                                       Page 3
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Program operations are managed through FNS’ seven regional offices and 69 subordinate field offices/satellite
locations. A regional administrator directs each regional office. These offices maintain direct contact with State
agencies that administer the FNS programs. The agency’s regional offices also conduct on-site management
reviews of State operations and monitor the 160,288 stores participating in the Food Stamp Program.

As of September 30, 2006, there were 1,367 full-time permanent and 27 part-time and temporary employees in the
agency. There were 515 employees in the Washington headquarters office; and 879 in the field, which includes
seven regional offices, 69 field offices, four food stamp compliance offices in Illinois, Texas, New Jersey, and
Tennessee; one computer support center in Minneapolis, Minnesota; and one administrative review office.




                                                       Page 4
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                         Management Discussion and Analysis




Section 2. Performance Goals, Objectives and Results
The FNS agency goal and objectives are fully integrated into USDA’s Strategic Goal 5 and three related Department
Strategic objectives. Each Department Strategic Objective has a key outcome and indicator, as discussed below.

USDA Strategic       USDA Strategic         Programs that
                                                        1            Key Outcomes                Key Indicators
    Goal                Objective            Contribute
                  USDA Strategic
                                                                 Key Outcome 1:
                  Objective 5.1:        FSP, CN, WIC, CAP,                                    Program Participation
                                                                 Reduce Hunger and
                  Improve Access to     FDPIR, TEFAP                                          Rates
                                                                 Improve Nutrition.
                  Nutritious Food
                  USDA Strategic                                 Key Outcome 2:
USDA Goal 5:      Objective 5.2:        FSP, CN, WIC             Promote more healthful
                                                                                              Nutrition Guidance
Improve the       Promote Healthier                              eating and physical
                                               2                                              Distribution Volume
Nation’s          Eating Habits and     CNPP                     activity across the
Nutrition and     Lifestyles                                     Nation.
Health            USDA Strategic
                  Objective 5.3:                                 Key Outcome 3:
                  Improve Nutrition     FSP, CN, WIC             Maintain a high level of     Food Stamp Payment
                  Assistance Program                             integrity in the nutrition   Accuracy Rate
                  Management and                                 assistance programs.
                  Customer Service




USDA Strategic Goal 5: Improve the Nation’s Nutrition and Health
FNS made strides in promoting access to a nutritious diet and healthy eating behaviors for everyone in the U.S., in
2006. Through its leadership of the Federal nutrition-assistance programs, the agency made a healthier diet available
for millions of children and low-income families. Interactive tools were used to help consumers establish and
maintain healthy diets and lifestyles, consistent with the Dietary Guidelines for Americans and the President’s
HealthierUS initiative. Key accomplishments included:

   Promoting access to the Food Stamp Program (FSP). Food stamps help low-income families and individuals
    purchase nutritious low-cost food. FSP is the Nation’s largest nutrition assistance program, serving 26.5 million
    people in an average month in FY 2006. The program enables eligible participants to improve their diets by
    increasing their food-purchasing power via benefits redeemable at retail grocery stores and farmers markets
    across the nation.
   Continuing to ensure that the MyPyramid food guidance system serves the American public as an
    individualized approach to nutritional well-being and active living. The high number of e-hits to
    MyPyramid.gov - over 2 billion in FY 2006 - continued to show users’ interest in personalizing their diet. To
    date, there are over 1.5 million registrations to the MyPyramid Tracker, the dietary and physical activity
    assessment tool. The new MyPyramid for Kids and MiPiramide materials were made available in FY 2006.
    And an on-line customer satisfaction survey shows that 88 percent of consumers said that the information and
    interactive tools at MyPyramid.gov prompted them to take action to improve their health.
   Continuing to ensure that Food Stamp benefits are accurately issued. The National Food Stamp Program
    payment accuracy rate for FY 2005 was 94.16 percent; an all time high and a 34 percent reduction in error from
    just five years ago. This improvement is a result of strong partnerships with States’ administering agencies, and
    program simplifications and policy options provided in the 2002 Farm Bill.

1
  FSP = Food Stamp Program, CN=Child Nutrition (includes the National School Lunch Program, the School Breakfast
Program, and the Special milk Program), WIC = Special Supplemental Nutrition Program for Women, Infants & Children, CAP
= Commodity Assistance Program, FDPIR = Food Distribition Progam on Indian Reservations, TEFAP = The Emergency Food
Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)


                                                        Page 5
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




                          Objective 5.1: Improve Access to Nutritious Food
FNS’ nutrition assistance programs represent the Federal Government’s core effort to reduce hunger and improve
nutrition across the U.S. These programs aided one in five people in the U.S. during FY 2006. They promote better
health for all people in the U.S., support the transition to self-sufficiency for low-income working families and
support children’s readiness to learn in school. A well-nourished, physically-active population is healthier, more
productive and better able to fulfill its full potential.

In 2006, the agency continued to work with States to implement Food Stamp Program (FSP) provisions from the
Farm Bill of 2002 that provides States with options to simplify the administration of the program. The agency also
continued efforts to monitor and track outreach efforts to targeted populations to participate in the program. FNS
continued a media campaign to inform low-income people of their potential eligibility. The agency also provided
technical assistance, outreach and participation grants and guidance to faith- and community-based organizations to
encourage FSP participation.

By working in partnership with States, FNS continues to implement effective nutrition assistance programs and
deliver program benefits to eligible participants. The programs promote access to a nutritious and adequate diet for
those with little income and few resources. For a variety of reasons, many individuals and families eligible to
participate in these programs do not. In FY 2006, FNS focused on increasing the rate of participation among people
eligible for Food Stamps and expanding access to the School Breakfast Program (SBP), which is not as widely
available as the National School Lunch Program.

While SBP provides cash assistance to States to operate breakfast programs in schools and residential child care
institutions, many children that could benefit from breakfast at school do not currently make use of the program. On
an average school day in FY 2006, more than 50 million children had access to school lunch and about 30 million
children chose to eat a program lunch, but only about 9.8 million children received a school breakfast. FNS
promoted the SBP by raising awareness of the program’s availability with State and civic leaders, and supporting
and celebrating National School Breakfast Week.

The agency also continued to serve those eligible for the Special Supplemental Nutrition Program for Women,
Infants and Children Program (WIC) who wish to participate within authorized funding levels – about 8.1 million
pregnant women, new mothers and their young children in an average month in FY 2006. WIC helps to safeguard
the health of low-income women, infants and children up to age five who are at nutritional risk. The program
provides nutritious foods to supplement diets, information on healthy eating and referrals to health care.

Finally, FNS reached out to a wide range of faith-based and community organizations to deliver program benefits
and services, and encourage access to the programs.

Challenges for the Future - Studies and analyses show that there continue to be large numbers of eligible people
who do not participate in Federal nutrition assistance programs. While recent changes in FSP have made more low-
income people eligible, many may be unaware of the opportunity to receive these benefits. FNS looks to improve
access to and promote awareness of these programs among those who may benefit from their services with
continued outreach and information strategies.

FNS’s ability to achieve this objective depends partly on adequate legislative authority for policies and program
initiatives. These initiatives would promote effective access to nutrition assistance and funding to support program
participation for all eligible people who seek service. The quality of program delivery by third parties—hundreds of
thousands of State and local Government workers and their cooperators—is critical to agency efforts to reduce
hunger and improve nutrition. Economic changes can affect both the number of people eligible and the ability of
cooperators to provide services.




                                                       Page 6
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                            Management Discussion and Analysis




                                Key Outcome: Reduce Hunger and Improve Nutrition

FNS is committed to providing access to nutritious food through the major nutrition assistance programs for all
eligible people who wish to participate. In FY 2006 participation increased in FSP and SBP and was maintained in
WIC.

Exhibit 1:    Improve Access to Nutritious Food
                                                                                                 Fiscal Year 2006
                     Annual Performance Goals and Indicators                          Target          Actual        Result
    5.1.1    Improve Access to Nutritious Food:
         Food Stamp Program Avg. Monthly Participation (millions of people)            26.9            26.5
         National School Lunch Program Avg. Daily Participation (millions of
                                                                                       30.2            30.1
             people)                                                                                                  Met
         School Breakfast Program Avg. Daily Participation (millions of people)         9.8            9.8
        Special Supplemental Nutrition Program for Women, Infants and Children
                                                                                        8.2            8.1
             (WIC) Monthly Participation (millions of people)

Analysis of Results - In general, nutrition assistance program participation in FY 2006 reached levels as
projected. As program participation is voluntary, participation projections are estimates based on economic and
other factors that impact the likely behavior of eligible populations. An analysis of the most recent information
available follows:

Exhibit 2:    Trends in Improving Access to Nutritious Food
                 Trends (in millions of people)                                    Fiscal Year Actual
                                                               2002         2003           2004       2005          2006
       Food Stamp Program Avg. Monthly Participation           19.1         21.3           23.9       25.7          26.5
       National School Lunch Program Avg. Daily
                                                               28.0         28.4          29.0          29.6        30.1
       Participation
       School Breakfast Program Avg. Daily Participation        8.1          8.4          8.9           9.4         9.8
       WIC Program Monthly Participation                        7.5          7.6          7.9           8.0         8.1
    Source: National Data Bank data as of June 22, 2006 (subject to change)

Food Stamp Program - The program served approximately 26.5 million participants monthly in FY 2006, an
increase of 3 percent from FY 2005 and the fourth year in a row of participation increases. FNS executed a range of
efforts to support and encourage food stamp participation in FY 2006, including:

   Promoted the use of State policy options that promote outreach and improve access to the program.
   Continued to implement FSP public information campaign. In March 2006, three new paid advertisements in
    English began airing in 49 media markets and on 2 Statewide radio networks across the nation. Twelve of the
    markets also aired two new ads in Spanish. Ads aired during March, April, July and August.
    Continued work with the Social Security Administration to implement Combined Application Projects (CAP)
    demonstrations, which streamline the eligibility determination process and assist in improving FSP participation
    among elderly. Thirteen States have been approved to operate CAP projects, two States have plans under
    review, and six States are are planning to submit plans in the next few months.
   Awarded 15 grants to small community and faith based organizations to conduct localized outreach activities.
   Awarded five participation grants totalling $5 million to increase access to the FSP. The participation grants
    focus on efforts to simplify both the application process and eligibility systems and complement the outreach
    grants.
   Worked succcessfully with States to plan and implement 1,600 outreach activities with faith based and
    community- based organizations and public agencies.

FNS also conducts studies to measure the number of people eligible for the program, in order to determine the rate at
which eligible people are participating. The most recent data, for 2004, indicates that approximately 23 million of
the 38 million individuals who were eligible for food stamp benefits in an average month of 2004 participated, a
participation rate of 60 percent. The program provided 71 percent of the total benefits that all eligible individuals
could receive, one indicator that people who are eligible for higher benefits are more likely to participate than


                                                            Page 7
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                            Management Discussion and Analysis




others. The overall participation rate increased by nearly five percentage points between 2003 and 2004, the third
annual increase in participation rates after falling for seven years.

National School Lunch Program—NSLP participation levels reached 30.1 million in FY 2006, up 1.7% from FY 2005 and
continuing the trend of increases in recent years. NSLP provides nutritious meals to millions of children at school; more than
95,000 schools operated the program in FY 2006.

School Breakfast Program - SBP participation levels reached 9.8 million in FY 2006, up 5 percent from a year ago
and continuing a trend of increases over the last several years. SBP makes healthy, nutritious meals available to
millions of children at the start of each school day. More than 78,000 schools operated the program in FY 2006. FNS
continued to support and encourages SBP participation in FY 2006 by:
 Promoting SBP through such activities as School Breakfast Week, which involves schools across America in
     highlighting the program through events, posters and student activities in the importance of a good breakfast—
     either at home or served through the program—in being ready for school;
 Working with various organizations and partners to help develop strategies for program expansion;
 Developing School Breakfast outreach materials for schools and parents; and
 Continuing to advance the implementation of the Child Nutrition/WIC Reauthorization Act of 2004.

In addition to the increase in the number of participating children, trend data indicate that the proportion of all
children enrolled in schools who participate in SBP has risen slowly but steadily in recent years. This use reflects
FNS’s continuing efforts to encourage schools to operate the program.

WIC Program - In FY 2006, 8.1 million participants received WIC benefits. FNS continued to work with OMB,
Congress, and its State cooperators to ensure that funding was available to support participation for all those eligible
who wish to participate.

FNS recently implemented a new methodology to estimate the number of people eligible to participate in WIC. The
most recent data available shows that 57.1% of eligible women, infants, and children participated in the program in
2003, a slight decrease from 2002 but generally consistent with the rate since 2000.




                    Objective 5.2: Promote Healthier Eating Habits and Lifestyles
Eating healthfully is vital to reducing the risk of death or disability due to heart disease, certain cancers, diabetes,
stroke, osteoporosis and other chronic illnesses. Despite this, a large gap remains between recommended dietary
patterns and what people in the United States actually eat. FNS uses Federal nutrition policy and nutrition
education, both for the general public and for those served by the nutrition assistance programs, to provide
scientifically based information about healthful diets and lifestyles. FNS uses, for example, the Dietary Guidelines
for Americans and MyPyramid to help Americans make wise choices related to food and physical activity. The
Guidelines provide advice about food choices that promote health and prevent disease, and MyPyramid provides the
educational tools to help Americans take the necessary “Steps to a Healthier You.”

Overweight and obesity is one of the leading causes of premature death and disability in the United States. Improved
diets can help with weight management and reduce the risk of certain types of cancers, as well as type II diabetes,
which is the most common form of diabetes. Thus, FNS’ efforts focus on updating nutrition policy, providing
information and promoting behavioral changes that can reduce overweight, obesity and other diet-related health
conditions. These actions hold the potential to improve the lives of millions of Americans and reduce the social costs
of these conditions.

Science has established strong links between diet and health. Researchers attribute about 300,000 premature deaths
annually to poor diets. The total costs attributed to overweight and obesity are estimated to be nearly $120 billion



                                                            Page 8
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                         Management Discussion and Analysis




annually. Even small improvements in the average diet would yield large health and economic benefits to
individuals and society as a whole.

To this end, FNS will continue promoting healthier eating and lifestyle behaviors as a vital public-health issue. The
Dietary Guidelines for Americans is the cornerstone of Federal nutrition guidance. Using the 2005 Dietary
Guidelines, and MyPyramid, the educational tool of the Guidelines, FNS will continue its leadership role of
providing advice on patterns Americans can follow to improve overall health through proper nutrition and physical
activity.

In the same vein, the nutrition assistance programs managed by FNS touch the lives of one in five Americans – an
enormous opportunity to promote healthier behaviors. In 2006, FNS maintained its focus on providing benefits to
children and low-income people that contribute to a healthful diet, with skills and motivation to encourage healthful
eating and increased physical activity. For example, in the Food Stamp Program, with the help of stakeholders, FNS
established a set of Guiding Principles that provide the foundation for nutrition education for FSP applicants,
recipients and those eligible for the Food Stamp Program. In FY 2006, the Principles were incorporated into
guidance for developing State Food Stamp nutrition education plans starting with Fiscal Year 2007.

Challenges for the Future - FNS’s goal of reducing obesity levels begins with understanding what constitutes a
healthy diet and the appropriate balance of exercise. Ultimately, however, success requires individuals to change
their diets by modifying their eating behavior. Crafting more effective messages and nutrition education programs to
help people make better food choices requires understanding their current choices and the relationships between
these choices and their attitudes, knowledge, and awareness of diet/health links. Accomplishing this understanding
requires data that link behavior and consumption decisions for individuals of various backgrounds, regions, ages and
genders. While data exists on a national scale, current survey sample sizes do not yield reliable information for
population subgroups.

While updated Federal nutrition guidance is an important step in helping Americans develop and maintain healthier
diets and lifestyles, using this guidance to motivate Americans to change remains a formidable task in light of the
limited resources available for nutrition promotion. FNS will continue to explore ways to devote significant long-
term resources to develop consumer-friendly and cost-effective nutrition education materials, and to make use of
partnerships and “information multipliers” to maximize the reach and impact of these materials. Promotional
materials will be used both within Federal nutrition-assistance programs and with the general public.

More broadly, attaining performance outcomes in this area depends partly on the emphasis that the Nation places on
healthier eating, including products and practices in the food marketplace. Additionally, physical activity and other
lifestyle issues have a significant affect on body weight and health.

            Key Outcome: Promote More Healthful Eating and Physical Activity across the Nation

FNS promotes healthful eating through its comprehensive nutrition assistance, research and education programs.
Efforts are targeted to nutrition-assistance program participants and the general public. For each target audience, the
challenge is to find effective ways to translate research into working knowledge to understand what people eat, and
to find effective strategies to reach target populations with promotional information and messages.

FNS tracks its annual performance in promoting healthful eating and physical activity by monitoring its annual
distribution of nutrition education materials.




                                                        Page 9
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                              Management Discussion and Analysis




Exhibit 3:     Promoting Healthier Eating Habits and Lifestyles
                                                                                         Fiscal Year 2006
             Annual Performance Goals and Indicators                            Target               Actual           Result
    5.2.1 Promote Healthy Eating habits and Lifestyles:
         Application and usage level of nutrition guidance tools             1.5 billion          2.18 billion      Exceeded
                                                                               3
                                                                         pieces of nutrition
                                                                        guidance distributed



Analysis of Results - To meet the needs of the general population, FNS continued its leadership role in the
promotion of nutrition guidance through educational tools that are designed to motivate Americans to “Step Up to a
Healthier You:

•    Usage level of nutrition guidance tools was substantial for FY 2006, as it was for FY 2005. Nearly 2.2 billion
     pieces of information were distributed via MyPyramid.gov and printed materials. Visitors to MyPyramid.gov
     used not only MyPyramid interactive tools, My Pyramid for Kids and MiPiramide but also used MyPyramid for
     Kids, a specialized version of MyPyramid designed to promote dietary changes to children 6- to 11-years old,
     and MiPirámide, a Spanish-language version of MyPyramid. To date, there are 1.56 million registered users of
     MyPyramid Tracker 4, the assessment tool for dietary and physical activity status.

•    Results from a customer satisfaction survey of MyPyramid.gov have been positive. Over 6 months, responses
     by site visitors continued to confirm the usefulness of MyPyramid.gov:
     • Overall, the site received a satisfaction score of that ranged from 69 to 83. The score was based on site
          content, functionality, look and feel, navigation, search, and site performance.
     • Most survey respondents to the site continued to be general consumers, students, and educators and
          teachers: 71 to 77 percent.
     • Most survey resondents believed the level and depth of the information at MyPyramid.gov met their needs:
          64 to 78 percent.
     • Most survey respondents said that the information at MyPyramid.gov prompted them to take action
          regarding their health: 69 to 75 percent.
     • Of those who were prompted to take action, most said they changed their diet or their family’s diet, reduced
          unhealthful eating habits, started monitoring their intake, developed a personalized plan, or established a
          goal for physical activity: 73 to 85 percent.

Exhibit 4:     Trends to Promote Healthier Eating Habits and Lifestyles
                                                                                 Fiscal Year Actual
                         Trends                              2002        2003           2004            2005          2006
     Application and usage level of nutrition guidance
                                                              N/A        N/A             N/A          1.0 billion   2.2 billion
     tools

Evidence from a range of sources indicates that problems related to diet quality persist, both among low-income
people and the general population. FNS’ ongoing efforts during this period to promote behavior change, both
through the nutrition assistance programs and its nation-wide nutrition policy and promotional efforts have been
focused on motivating changes to reduce and prevent excessive weight gain and obesity.




3
 The total represents the number of e-hits to MyPyramid.gov links and number of print materials distributed
4
  Data on the number of registrations to MyPyramid Tracker are cumulative from April 19, 2005; therefore, that information is
reported separately.


                                                              Page 10
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Management Discussion and Analysis




             Objective 5.3: Improve Food Program Management and Customer Service
FNS is committed to ensuring that nutrition-assistance programs serve those in need at the lowest possible cost, and
with a high level of customer service. Managing Federal funds for nutrition assistance effectively, including
prevention of program error and fraud, is a key component of the President’s Management Agenda. FNS focused on
maintaining strong performance in the food stamp payment-accuracy rate as its key performance goal in this area.

FNS continued to improve management practices by reducing program errors and enhancing customer service. The
delivery of food-stamp benefits remains a priority of the Department, as it continues to work with its State agency
partners in maintaining a high level of integrity in administering nutrition assistance programs. Our continued focus
in 2006 on improving nutrition-assistance program management and customer service reflects FNS’ long-term core
commitment to prevent waste, inefficiency and abuse that diverts taxpayer resources from the core purposes and
goals of these programs. The sheer size of these programs demands that the utmost attention be given to applying
efficient management practices and, to the extent possible, preventing errors in distributing benefits. Deficiencies in
customer service undermine the effectiveness of the programs in reaching clients with the benefits they need.
Maintaining public trust in Federal nutrition-assistance programs is vital to their success and continued support.

Challenges for the Future - Some improper payment risks are inherent to the legislatively mandated program
structure. The nutrition assistance structure is intended to serve people in special circumstances and settings. FNS
must shape its management approach in light of the need to make services convenient and accessible to participants.
In addition, State and local Governments bear direct responsibility for delivering the programs. Thus, the agency
must work with State and local personnel to address improper payment problems through monitoring and technical
assistance. This approach requires adequate numbers of trained staff supported by a modernized information
technology infrastructure to ensure full compliance with national program standards and prevents or minimizes
error, waste and abuse.

To meet the challenge of continued improvements in payment accuracy in the Food Stamp Program (FSP), FNS
continues to dedicate resources to this area. Despite this, two significant challenges will impact future success.
Congressional action has changed the quality control process, lowering the risk of penalties for poor State agency
performance. It remains to be seen how States will react to these changes. Additionally, State budgets have been
and will continue to be extremely tight. This factor could hurt State performance in the payment-accuracy arena.
FNS will continue to provide technical assistance and support to maintain payment accuracy in the context of this
changing program environment.

             Key Outcome: Maintain a High Level of Integrity in the Nutrition Assistance Programs

While 2006 data are currently unavailable, Food Stamp payment accuracy reached a record high in 2005, reflecting
strong efforts in this area that have resulted in significant reductions in error over the past several years. Even small
changes in the food stamp error rate can save millions of dollars.

Exhibit 5:     Increase Efficiency in Food Management
                                                                                          Fiscal Year 2006
                  Annual Performance Goals and Indicators                        Target        Actual        Result
   5.3.1   Improve Food Program Management and Customer Service
                                                                                                             Deferred
   Increase Food Stamp Payment Accuracy Rate                                     93.8%          N/A



Analysis of Results – The FY 2006 Food Stamp Payment Accuracy Rate will become available in June 2007.
The FY 2005 Food Stamp Payment Accuracy Rate was a new record high of 94.16 percent, the seventh consecutive
year of improvement and a reduction in error of 34% from five years earlier. Of the total FY 2005 payment error
rate of 5.84 percent, 4.53 percentage points represent the over issuance of benefits; the other 1.31 percentage points
represent under issuance of benefits. Performance highlights include:




                                                        Page 11
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




•   Thirty-two State agencies, including Illinois, Pennsylvania, and Texas, achieved a payment error rate of less
    than 6 percent. California, with a payment error rate of 6.38 percent, continued to improve from its FY 2002
    error rate of 14.84 percent.
•   Three State agencies in FY 2005 were assessed liabilities totaling an aggregate of $3.6 million for having
    excessive error rates for two consecutive fiscal years.

FNS efforts such as the Partner Web (an intranet site for State Food Stamp agencies) and the National Payment
Accuracy Work Group (consisting of representatives from FNS headquarters and regional offices) contributed
significantly to this success by making timely and useful payment accuracy-related information and tools available
across regions and States. Additionally, FNS continued to use an early detection system to target States that may be
experiencing a higher incidence of errors based on preliminary QC data. Actions are then taken by Regional offices
to address these situations in the individual States.

Exhibit 6:   Trends in Increased Efficiency in Food Management
                                                                         Fiscal Year Actual
                      Trends                        2002         2003         2004            2005        2006
    Food Stamp Payment Accuracy Rate                91.7%       93.4%        94.1%            94.2%        TBD



FNS’ close working relationship with its State partners over the last several years, along with program changes to
simplify rules and reduce the potential for error, has resulted in consistent increases in the Food Stamp Payment
Accuracy rate. One of the most important factors in maintaining improved performance in this area is the need for
State partners to continue and renew their leadership commitment to excellence in payment accuracy. To support
State improvement, FNS will continue efforts with the National Payment Accuracy Work Group to share best
practice methods and strategies. FNS also will continue to resolve Quality Control liabilities through settlements,
which require States to invest in specific program improvements.




                                                      Page 12
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Section 3. Analysis of Systems, Controls, and Legal Compliance
The information in this section is consistent with the findings of the USDA OIG’s FY 2006 financial statements
audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance

    Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
    operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of assets.
    Internal control encompasses accounting and administrative controls. Such controls include program,
    operational and administrative areas as well as accounting and financial management. FNS has conducted its
    assessment of internal control and financial systems pursuant to Section 2 and Section 4 of FMFIA,
    respectively, for the period ending September 30, 2006. Based on the results of this evaluation, FNS can
    provide reasonable assurance that internal controls are operating effectively and no new material weaknesses or
    reportable conditions were identified.

    While FNS is able to provide reasonable assurance relating to FMFIA Section 2 on program controls for FY
    2006, continued reductions in FNS admininstrative resources, significant changes in program design, and/or
    additional administrative requirements may compromise FNS’ ability to adequately execute internal controls
    over program management and limit FNS’ ability to design and implement any additional controls that may be
    needed in the future.

Federal Financial Management Improvement Act (FFMIA) Assurance

    FNS has evaluated its financial management systems under FFMIA for the period ended September 30, 2006.
    Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for the following
    sections:

        1.   Federal Financial Management Requirements,
        2.   Applicable Federal Accounting Standards,
        3.   Standard General Ledger at the Transaction Level, and
        4.   Information Security, Policies, Procedures and Practices.

    The agency has put in place remediation plans and procedures to adequately address security deficiencies
    identified by the USDA OIG in its FY 2005 Financial Statements Audit Report No. 27401-1-FM.

Assurance for Internal Control over Financial Reporting

    FNS conducted its assessment of the effectiveness of internal control over financial reporting for the period
    ended June 30, 2006 in accordance with USDA’s Implementation Guide and as required by the Office of
    Management and Budget Circular A-123, “Management’s Responsibility for Internal Control,” Appendix A.
    This assessment included an evaluation of entity level controls, process descriptions, risk assessments,
    documentation of key controls, an assessment of the design of key controls, and tests of effectiveness of
    properly designed controls. FNS recognizes its responsibility for monitoring and correcting all control
    deficiencies.

    Based on the results of this activity, no new material weaknesses or reportable conditions were identified. FNS
    can provide reasonable assurance that internal controls over financial reporting are operating effectively.
    Additionally, there were no changes to financial reporting controls or processes for the period July through
    September 2006.

    FNS currently has sufficient resources to execute its existing internal controls over financial reporting.
    However, future reductions in FNS resources or significant changes in program design without commensurate
    increases in administrative resources may compromise FNS’ ability to adequately execute internal controls over


                                                      Page 13
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                             Management Discussion and Analysis




      financial reporting already in place or limit FNS’ ability to design and implement any additional controls that
      may be needed in the future.

OIG Audit Handling Process and Performance Report

The Audit Handling and Reporting Processes

USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and operations. The
results of this work are reports detailing, at a minimum, what was examined, findings that should be addressed and
recommendations for changes/improvements. Upon release of each final report, FNS submits to OIG a written
corrective action plan listing actions planned and dates by which these actions will occur. Management decision is
reached when OIG accepts FNS’ proposed corrective actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up activities to
assure that planned actions for each recommendation are implemented and completed. As this occurs, FNS notifies
the Department’s Office of the Chief Financial Officer (OCFO) and requests concurrence that all actions described
in the management decision agreement have occurred. Final action is achieved for each finding/recommendation
when all actions necessary to fulfill the management decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

      o    The amount of time needed to complete certain activities cannot be accurately estimated. Examples of these
           are:
           • Specific legislation, policy or guidance needs to be developed;
           • An investigation, negotiation, or administrative appeal action must be completed;
           • An automated system needs to be developed, implemented, or enhanced;
           • The results of additional monitoring or program review activity must be completed;
           • Disallowed costs must be collected;
           • Legal advice or opinion from the Office of General Counsel is needed;
           • Certain external (state) or administrative actions must occur.

      o    Changes that could not be anticipated at the time management decision was reached:
           • A change must be made to the management decision agreement;
           • Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one year past
the management decision date. These interim reports show incremental progress toward completion of planned
actions, changes in planned actions, actual or revised completion dates, and explanations for revised dates.

Audit Handling Performance

The number of FNS audits without final action more than one year after management decision has declined by more
than 50 percent since FY 2004. 5 The Inspector General Act Amendments of 1988 requires the following data for an
annual report on the status of audits.




5
    At the close of FY 2004, FNS had 13 such audits. At the close of FY 2005, FNS had 11 such audits.


                                                            Page 14
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                         Management Discussion and Analysis




                Audits Without Final Action More Than One Year Past the Management Decision Date
                       Date                                      Completion Date       Reason for Lack of Final
 Audit Number                                Audit Title
                      Issued                                      for Actions (est)             Action
                                   FSP Disqualified Recipient                        Awaiting publication of
27601-3-CH            3-22-96                                           9-30-07
                                   System                                            regulations
                                                                                     Awaiting collection of
27010-19-SF          11-18-99      Smart Start, Inc.                   12-31-06
                                                                                     disallowed costs
                                   CACFP-Opportunities
                                                                                     Awaiting collection of
27099-22-CH           2-27-02      Industrialization Center of          3-31-07
                                                                                     disallowed costs
                                   Greater Milwaukee
                                   NSLP Food Service                                 Awaiting publication of
27601-27-CH           4-30-02                                           6-30-07
                                   Management Companies                              regulations
                                                                                     Awaiting external action by
27010-3-KC            3-22-00      CACFP-Wildwood                      12-31-06
                                                                                     state
                                   FS Employment and                                 Requested final action
27601-12-AT           3-31-03                                          09-30-06
                                   Training - Tennessee                              September 29, 2006.
                                   Summer Food Service                               Awaiting collection of
27099-31-SF           8-24-04                                           6-30-07
                                   Program - Nevada                                  disallowed costs




                                                        Page 15
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Section 4. Improper Payment Information Act (IPIA) Reporting
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and activities, 2)
identify those that may be susceptible to significant improper payments, 3) estimate the annual amount of improper
payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that exceeds both
2.5% of program payments and $10,000,000. For programs/payments that fit this description, agencies must report
in a prescribed manner on the actions being to taken to:

    •   Measure and reduce the improper payments,
    •   Identify the causes and take action to correct them,
    •   Implement necessary infrastructure to support activities,
    •   Develop proposals to obtain necessary infrastructure, and
    •   Hold managers accountable for results.


Review of Programs/Activies and Identification of Programs Susceptible to Improper Payments

Prior to the passage of IPIA (P.L.107-300), the Food Stamp Program (FSP) regularly reported State and National
overpayment and underpayment error rates. The system which provides this information was designed to measure
performance information using the specific elements used to determine benefit eligibility. This information is
continually analyzed and accumulated yearly. It provides useful information which guides legislative, policy,
management and operational considerations as well as determines improper payment/payment accuracy metrics.
These Food Stamp Program activities predate the passage of the IPIA and FSP was immediately recognized as
compliant with the intent of the IPIA when the law was passed.

FNS assessed all other food assistance programs as well as its Nutrition Programs Administration (NPA) funding.
NPA is the source of payments made for FNS’ Federal administrative operations, e.g., salaries, travel and supplies,
of the employees of the agency. Assessments were conducted in conjunction with USDA-coordinated procedures.
FNS, with OMB concurrence, has designated the following programs as subject to significant improper payments:

    •   Food Stamp Program (FSP)
    •   National School Lunch Program (NSLP) and School Breakfast Program (SBP)
    •   Special Supplemental Nutrition Program for Women, Infants and Children (WIC)
    •   Child and Adult Care Food Program (CACFP)

Estimates of Improper Payments and Actions to Achieve Desired Future Results

The Food Stamp Program National improper payment rate for FY 2005 was 5.84%, the lowest in the program’s
history. This represents a 4.53 overissuance rate and a 1.31 underissuance rate. The rate for FY 2006 will be
available in June 2007.

Improper payment rates for the National School Lunch Program and School Breakfast Program are under
development. Data from the 2005-2006 school year has been gathered and is being analyzed. The rates will be
available in late 2007. Once the rates have been determined and the causes of error have been analyzed,
improvement targets will be established and corrective action plans for improvement will be developed and
implemented.

The WIC Program will have two improper payment measurements; a certification measure and a vendor payment
measure.




                                                      Page 16
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




    •   A vendor study, for FY 2005, was recently completed. This study found that 0.60% (six-tenths of one
        percent) of vendor claim transactions were in error. The causes of this error are being analyzed; based on
        the very small rate for 2005, corrective actions and targets for reduction are not necessary.

    •   Pending the availability of funding, a national study to determine the certification metric using FY 2008
        data is scheduled to be available in late FY 2009. Once this certification rate has been determined and the
        causes of error have been analyzed, reduction targets will be established and corrective action plans for
        improvement will be developed and implemented.

Developing an improper payment measure for the entire CACFP is most difficult. This program is actually three
separate programs, each with multiple levels of operation and differing costs structures. A budget request for
funding was made for FY 2006 funds to perform a program-wide study to determine a payment error rate. The cost
of this study was estimated at $20 million; this funding was not approved. FNS has identified the Family Day Care
Home (FDCH) component of CACFP as potentially of high risk. FDCHs participate in CACFP through public or
private nonprofit sponsoring organizations.

    •   In the spring of 2004, FNS began the Child Care Assessment Project (CCAP). This project was designed to
        measure the effectiveness of efforts to improve the integrity of CACFP family day care homes and provides
        information from a broadly representative national sample of sponsors and providers. Over a four -year
        period, FNS is conducting comprehensive on-site assessments of a sample of participating FDCH sponsors.
        The assessments are designed to analyze the effectiveness of FNS regulatory and policy initiatives on
        program performance. This activity will also offer insights on the control points in the claiming and
        reimbursement process that most frequently cause or contribute to improper payments. The information
        obtained will help to support the effort to develop measurement strategies to estimate CACFP erroneous
        payments pursuant to IPIA. All data collection for this activity is expected to conclude at the end of FY
        2007. Once analysis of data is complete, corrective actions will be developed.

Improper payments in the FDCH component of CACFP are most likely caused by sponsor error in determining a
participating home’s reimbursement tier (tiering error) or FDCH error in reporting the number of meals which are
eligible for reimbursement (claiming error). Planned actions to measure these are:

    •   Sponsor tiering error measurement - The first annual sponsor tiering error measure has just been
        announced. This measure, for FY 2005 is 1.8%. The FY 2006 estimate will be reported next year.

    •   Meal claiming error measurement - FNS has developed and plans to test two methods of estimating the
        risk of claiming error in FDCHs. These methods are:

        a) A state data approach using data from State monitoring visits of FDCHs.
        b) A sponsor data approach where Federal staff select a random sample of sponsoring organizations and
           from each use a random selection of the sponsor’s monitoring visits of FDCHs.

        Both approaches compare the number of participants observed during the monitoring visit to the average
        number of meals claimed for reimbursement for the meal or snack closest to the time of the visit. Each
        approach a) provides an estimate of the risk of claiming error among FDCH providers; b) involves a
        different set of problems (which may or may not be surmountable); and c) requires very different resource
        implications.

        FNS will pilot both approaches in conjunction with the 21 Child Care Assessment Project (CCAP) reviews
        scheduled for FY 2007. We anticipate a sample size (for the pilot) of 400 FDCHs. Data collection forms
        have already been developed for each approach to facilitate standardized collection and data entry.

The tables below summarize the results of measurement activities for programs identified as subject to a significant
risk of improper payments. The first table shows improper payment rates for the last two years and the second table
reflects future reduction targets. All results reported each year represent measures of outlays and program activity

                                                      Page 17
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                                    Management Discussion and Analysis




for the previous year. Footnotes are provided to explain the anticipated availability of many of the numbers missing
at this time.

                                              Results ($ in millions)
                                  FY2004 Results                  FY2005 Results
                                Reported in FY 2005           Reported in FY 2006
    Program                  Outlays   IP%       IP$       Outlays    IP%        IP$
    FSP                         24,358             5.88%             1,432         28,160             5.84%               1,645
    NSLP-SBP                     6,407                   N/A           N/A             6,506              N/A              N/A
    WIC                          3,422          -----------      -----------           3,525        -----------     -----------
      Certification           -----------                N/A           N/A        -----------             N/A              N/A
      Vendor                  -----------                N/A           N/A        -----------        0.60%                 21.2
    CACFP                        2,061                   N/A           N/A             2,065        -----------     -----------
    - FDC Homes                     888         -----------      -----------             864        -----------     -----------
      Tiering Decisions       -----------                N/A           N/A        -----------           1.8%               15.6
      Meal Claims             -----------                N/A           N/A        -----------             N/A              N/A

                                                         Reduction Outlook ($ in millions)
                                                                                                                      FY 2008
                               FY 2006                                    FY 2007                                  Reporting in FY
                          Reporting in FY2007                        Reporting in FY2008                               2009
                                                                                                                  Outlays
                                                                                                                      6
Program                   Outlays            IP%           IP$        Outlays            IP%          IP$                         IP%       IP$
FSP                        30,588            6.20%        1,896           32,168         5.8%        1,866             TBD        5.7%      TBD
                                                                                         TBD
                                              TBD 7                                             8
NSLP-SBP                     7,623                         TBD                 7,777                  TBD              TBD        TBD       TBD
WIC                          3,606          ----------     -------             3,751     -------     -------           TBD        -------   -----
      Certification 9     -----------           N/A            N/A      -----------       N/A          N/A        -----------     TBD       TBD
      Vendor 10           -----------          TBD         TBD          -----------       TBD         TBD         -----------     TBD       TBD
CACFP                        2,074          ----------     -------             2,074     -------     -------           TBD        -------   -----
- FDC Homes                     833         ----------     -------              808      -------     -------           TBD        -------   -----
               11
    Tiering               -----------          TBD         TBD          -----------       TBD         TBD         -----------     TBD       TBD
     Meal
       12
Claims                    -----------           N/A            N/A      -----------       N/A          N/A        -----------       N/A     N/A




6
   The FY 2008 outlays have not yet been estimated for any programs.
7
  Improper payment rate and dollar equivalent for NSLP-SBP for the 2005-06 school year will be reported in August 2007.
8
  Rates for school years after 2005-2006 will be reported according to a schedule not yet developed.
9
  Contingent upon funding, the improper payment rate for WIC certification will be determined for FY2008 and available in late
FY2009.
10
   WIC vendor rate (0.60%) just recently announced. Reduction outlook not developed in time for this report
11
   CACFP-FDCH tiering rate just recently announced. Reduction outlook not developed in time for this report.
12
   CACFP-FDCH meal claiming rate will be determined for FY2009 and available in FY2010, contingent upon funding.


                                                                       Page 18
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Section 5. Other Management Information, Inititatives and Issues

President’s Management Agenda

FNS actively participates in eight President’s Management Agenda initiatives. FNS reports quarterly on the
completion of agency-specific milestones which progress toward the advancement of these inititatives.

During FY 2006, FNS improved on its score of FY 2005 in three items. FNS now has three initiatives scored green
(success). FNS no longer has any initiatives scored as red (unsatisfactory). For the five items now scored as yellow
(mixed results), FNS is working to comply with OMB and OCFO requirements for a green score and four items may
reach that level by the end of FY 2007. One remaining item will not be scored green for another few years. :

    Eliminating improper payments will not score green until all programs deemed susceptible to significant
    improper payments not only have an improper payment measure but also demonstrate having reached an initial
    improvement target. Such targets cannot be established for the programs so deemed until a yearly measurement
    metric is available. The final metric for one FNS program is not scheduled to be available before FY 2010.


                   Initiative Area                                    FY 2005          FY 2006

                   Human Capital Management                            Yellow          Yellow
                   Competitive Sourcing                                Yellow          Yellow
                   Financial Performance                               Green           Green
                   E-Government                                         Red            Yellow
                   Budget & Performance Integration                     Red            Yellow
                   Real Property Management                            Green           Green
                   Eliminating Improper Payments                       Yellow          Yellow
                   Faith-Based & Community                             Yellow          Green

Management Challenges

In August, 2006, USDA-OIG identified seven management challenges facing USDA. Of these seven, FNS programs
are directly mentioned as a part of two of them. The entire OIG report can be found in the FY 2006 USDA
Performance and Accountability Report.

    •   Implementation of Improper Payment Act Requirements Needs Improvement

        FNS has an active plan for reducing improper payments. This plan was first approved by OMB in
        September 2004. It contains actions toward fulfilling IPIA requirements in programs designated as subject
        to significant improper payments. FNS modified the CACFP plan and received OMB approval of the
        modification in August 2006.

    •   USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight

        The specific challenges identified by OIG are; 1) distributing assistance as rapidly as possible while
        ensuring only victims receive benefits, 2) informing victims of the availability of benefits (outreach), and 3)
        learning from the experiences of those agencies that have responded to these catastrophes.




                                                      Page 19
         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                   Management Discussion and Analysis




FNS has been part of the National emergency response network almost since the inception of public food
assistance. Disaster response has been part of food assistance legislation and regulations for over 30 years.
The mechanisms for performing outreach and providing food assistance in emergency circumstances have
been constantly upgraded and improved. The 2005 hurricanes did bring about a situation never before
experienced -- the massive evacuation of residents/beneficiaries out of the affected areas and across state
lines. This created the need for new policies and procedures. (It should be noted that no new legislation
was necessary in order to properly respond.) The new policies and procedures were very quickly created,
approved and implemented nationwide. All new policies and procedures considered necessary controls to
maintain program integrity while also promptly providing benefits to those in need. While actual measures
of integrity and helpfulness are not yet available, FNS has been recognized as having led an outstanding
food assistance response effort in the aftermath of the 2005 hurricanes.

“Prior to Katrina making landfall, the Food and Nutrition Service (FNS) had proactively pre-positioned food in
warehouses in Louisiana and Texas, making the food readily available for disaster meal service programs. FNS
continued its efforts to ensure adequate supplies of food were on hand or nearby by airlifting initial supplies of
infant formula and baby food products to Louisiana, Texas, Alabama and Mississippi and then following up with
additional baby food supplies for delivery via land transportation (this amounted to approximately two million
pounds). Additional commodities (approximately twenty million pounds), that included fruits, juices, vegetables,
meats and grains, were also procured and/or diverted from existing USDA and other state sources to assist with
congregate meal service and provide families with food packages until the Disaster Food Stamp Program could
provide food relief (certain locations in the hardest hit areas could not operate the Disaster Food Stamp Program
because there were no retail outlets available). Additionally, schools outside the devastated areas were granted
waivers which permitted the service of free meals to children who had fled the devastated areas and began
attending school elsewhere. FNS also promptly implemented the Food Stamp Program’s first National Evacuee
Policies that enabled State agencies that were not affected by the hurricane or that were not administering a
disaster program to immediately issue disaster benefits to individuals and families who evacuated to their States.
FNS approved over seventy waivers to affected States to issue benefits under the disaster authority. FNS also
expanded the range of foods that could be purchased with food stamps in Louisiana, Mississippi, Florida, Alabama,
and Texas, and approved alternate procedures for use and replacement of food stamp benefit cards to improve a
household’s ability to purchase food.”

The Federal Response to Hurricane Katrina: Lessons Learned - What Went Right
White House, February 2006




                                                    Page 20
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                         Management Discussion and Analysis




Section 6. Limitations of Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations of the
Food and Nutrition Services (FNS), an agency of the United States Department of Agriculture, pursuant to the
requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books and records of FNS in
accordance with GAAP for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same books and
records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                       Page 21
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Section 7. Financial Statements Highlights and Analysis

FNS’ FY 2006 financial statements reflect the nutrition assistance program’s responsiveness to the Nation’s
sustained, strong economic performance. By design, the level of activity within the nutrition assistance programs
varies with the level of need experienced by the populations we serve. A key determinant of this level of need is the
health of economy. In FY 2006 the economy performed more strongly than was anticipated by the President’s FY
2006 budget request. As a result, program participation and costs, as reflected in the financial statement are, on
average, lower than was anticipated.

Of particular note in the FY 2006 financial statement are large increases in Unexpended Appropriations and Fund
Balance with Treasury over FY 2005 levels. This results from two primary factors. In FY 2005 the Food Stamp
Program contingency reserve was converted by Congress into a two-year appropriation, resulting in a significant
increase in the reserve for FY 2006. None of these contingency resources were used in FY 2006. This resulted in
the appropriation of significantly more resources than were necessary for the mandatory entitlement programs.
The result was that, FY 2006 dollar levels for Fund Balance with Treasury and Unexpended Appropriations were
higher ($5.5 billion and $5.3 billion, respectively) than FY 2005 levels.

Balance Sheet


                                              2006                             2005                  Proportion
                                   Dollars (mill)  Percent         Dollars (mill)       Percent       Change
Fund Balance with Treasury                 16,585     95.77%                11,058         96.78%        -1.01%
Accounts Receivable                           233      1.83%                   211          1.36%         0.47%
General PP&E                                    25     0.23%                    26          0.15%         0.08%
Other                                         294      2.18%                   252          1.72%         0.47%
 Total Assets                              17,137   100.00%                 11,547        100.00%

Accounts Payable                            3,543        27.97%               3,230         20.67%         7.30%
Benefits                                        7         0.07%                   8          0.04%         0.03%
Other Liabilities                              56         0.51%                  59          0.33%         0.18%
 Total Liabilities                          3,606        21.04%               3,297         28.55%
Unexpended Appropriations                  13,322        69.77%               8,056         77.74%         -7.97%
Cummulative Results of
Operations                                    209         1.68%                 194          1.22%         0.46%
 Total Net Position                        13,531        78.96%               8,250         71.45%
Total Liabilities & Net Position
                                           17,137          100%             11,547            100%

The balance sheet proportional composition remains relatively unchanged from FY 2005 to FY 2006. The vast
majority of FNS assets are held in Fund Balance with Treasury (FBWT) - almost 96% in FY 2005 compared with
almost 97% in FY 2006. This cash-like account largely represents appropriated funds that at fiscal year end have
not yet been disbursed to States or other grantees because they have not yet been paid to and/or earned by the
grantees. The dollar increase in FBWT of $11,058 million in FY 2005 to $16,585 million in FY 2006 is reflected in
the corresponding level of growth in both Unexpended Appropriations and, to a lesser degree, Accounts Payable.
Accounts Payable represents the largest liability of the agency, typically representing amounts that are currently
payable to grantees. The FY 2006 Net Position of the agency is concentrated in Unexpended Appropriations.




                                                      Page 22
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                       Management Discussion and Analysis




Statement of Net Cost

                                            2006                            2005              Proportion
                                 Dollars (mill)  Percent        Dollars (mill)     Percent     Change
Gross Cost                               53,451   100.06%                51,605      100.04%       0.02%
Less: Earned Revenue                         -21    -0.06%                  -29        -0.04%     -0.02%
Net Cost of Operations                   53,430   100.00%                51,576      100.00%


The FNS mission addresses USDA Strategic Goal 5 to Improve the Nation’s Nutrition and Health. All program
costs are reported under that strategic goal. Gross Costs increased from $51,605 million in FY 2005 (a 3.5%
increase in absolute dollars) to $53,451 million in FY 2006, reflecting the overall impact of FNS programs’
participation levels and food costs.

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less than one
percent), and the FY 2006 Net Cost of Operations is comparable to FY 2005. Earned revenue represents funds from
the State Option Food Stamp Program authorized under P.L. 105-18. States participating in this program reimburse
FNS for benefits paid to legal immigrants who do not qualify for the Federal Food Stamp Program to whom the
States have “opted” to provide benefits. As more formerly disqualified applicants are legally coming back onto the
program rolls, and as the number of States participating in “State Option” have declined, levels of earned revenue
have declined. In FY 2006, earned revenue fell $8 million.

The Net Cost of Operations increased from $51,576 million in FY 2005 to $53,430 million in FY 2006.




                                                     Page 23
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Statement of Changes in Net Position


                                            2006                             2005                 Proportional
                                 Dollars (mill)  Percent         Dollars (mill)      Percent        Change
Cumulative Results of
Operations
Beginning Balance                            194                             285                         0.00%
Appropriations Used                       47,516       88.20%             45,410         88.91%         -0.71%
Transfers In(Out) without
Reimbursement                              5,203       10.04%              5,168          9.74%          0.30%
Other Budgetary Financing
Sources                                                 0.00%                 -1          0.00%          0.00%
Imputed Financing                            726        1.76%                908          1.36%          0.41%
  Total Financing Sources                 53,445      100.00%             51,485        100.00%
Less: Net Cost of Operations              53,430                          51,576
Ending Balance                               209                             194

Unexpended Appropriations
Beginning Balance                          8,056                           8,579
Appropriations Received                   53,813                          47,398
Adjustments                               -1,031                          -2,511
Appropriations Used                      -47,516                         -45,410
Total: Financing Sources                   5,266                            -523
Less: Net Cost of Operations                   0                               0
Ending Balance                            13,322                           8,056




The Statement of Changes in Net Position explains the changes in the two components of Net Position of the
Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended Appropriations.

Cumulative Results of Operations increased $15 million, from $194 million in FY 2005 to $209 million in FY 2006,
as appropriations used and other financing sources exceeded the net cost of operations. The proportional distribution
of financing sources among appropriations, transfers, and imputed financing remained relatively unchanged from
FY 2005 to FY 2006. Transfers are largely made up a single large transfer made in the annual appropriations act
from funds available to the Secretary under Section 32 of the Act of 1935. Transfers represent almost ten percent of
total financing sources in both FY 2005 and FY 2006.

Unexpended Appropriations increased from $8,056 millon in FY 2005 to $13,322 million in FY 2006 as more
appropriations (net of adjustments) were received than were expended. These unused financing sources are also
reflected in the higher balances in the FBWT on the balance sheet.




                                                      Page 24
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Management Discussion and Analysis




Statement of Budgetary Resources

                                            2006                             2005                 Proportional
                                 Dollars (mill)  Percent         Dollars (mill)      Percent        Change
Budgetary Resources
Beginning Unobligated Balance
                                           7,108       10.77%              7,768         13.33%         -2.55%
Recoveries                                   797        1.21%                391          0.67%
Appropriations                            53,813       81.57%             47,398         81.31%
Collections                                   85        0.13%                 79          0.14%
Without Adv. Fed Source                        1        0.00%                             0.00%          0.00%
Transfers                                  5,203        7.89%              5,168          8.87%         -0.98%
Less: Permanently Not
Available                                 -1,033       -1.57%             -2,511         -4.31%          2.74%
Total Budgetary Resources                 65,974      100.00%             58,293        100.00%

Status of Budgetary
Resources
Direct Obligations                        53,530       81.14%             51,157         87.76%         -6.62%
Reimbursable Obligations                      27        0.04%                 28          0.05%         -0.01%
Apportioned-Unobligated                    3,160        4.79%                526          0.90%          3.89%
Unobligated-Not Available                  9,257       14.03%              6,582         11.29%          2.74%
Total: Status of Budgetary
Resources                                 65,974         100%             58,293           100%

Net Outlays                               52,448       79.50%             49,823         85.47%         -5.97%




FNS’ FY 2006 budgetary resources increased from the prior year, in keeping with trends in projected program
participation and food cost levels, as well as annual program appropriations levels. FNS had $65,974 million in total
budgetary resources during FY 2006, largely from appropriations received, but also from transfers and available
unobligated balances from prior periods.

At fiscal year end 2006, most ($53,530 million or 81%) of those resources were obligated, though $3,160 million
(almost 5%) remained unobligated and available, and another $9,257 million (14%) was unobligated and not
available (including apportioned unavailable Contingency Reserve funds for WIC and Food Stamps). In FY 2006,
Net Outlays represented 79.5% of Total Budgetary Resources, compared to 85.5% in FY 2005.




                                                      Page 25
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                       Management Discussion and Analysis




Statement of Financing

                                            2006                            2005             Proportion
                                 Dollars (mill)  Percent        Dollars (mill)     Percent    Change
Obligations Incurred                     53,557     99.15%               51,185      100.29%     -1.14%
Less: Authority from
Collections and Recoveries                 -883       -0.91%                -470       -1.65%         0.74%
Plus: Imputed Financing                     726        1.76%                 908        1.36%         0.40%
Total Resources Used to
Finance Activities                       53,400      100.00%            51,623        100.00%

Total Resources Used to
Finance Net Cost of Operations           53,426       99.93%            51,589       100.05%
Net Cost of Operations                   53,430       99.91%            51,576       100.06%


Obligations net of recoveries, combined with imputed financing resulted in $53,400 million in total resources used
to finance FNS activities in FY 2006, compared with $51,623 million in FY 2005. Note that four amounts on the
Statement are a close approximation of one another in both FY 2005 and FY 2006: Obligations Incurred, Total
Resources Used to Finance Activities, Total Resources used to Finance the Net Cost of Operations, and the Net Cost
of Operations. There were no significant proportional deviations from the FY 2005 Statement of Financing.




                                                     Page 26
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                              Financial Statements




                                      Food and Nutrition Service
                                         BALANCE SHEET
                             As of September 30, 2006 (CY) and 2005 (PY)
                                             (in dollars/millions)

                                                                                FY 2006    FY 2005
 Assets (Note 2):                                                                  (CY)       (PY)
      Intragovernmental:
            Fund balance with treasury (Note 3)                                 $16,585    $11,058
            Other (Note 6)                                                          294        252
       Total intragovernmental                                                   16,879     11,310
       Accounts receivable, net (Note 4)                                            233        211
       General property, plant, and equipment, net (Note 5)                          25         26
 Total assets                                                                   $17,137    $11,547
 Liabilities (Note 7):
     Intragovernmental:
           Accounts payable                                                           $0       $2
           Other (Note 8)                                                             38       27
     Total intragovernmental                                                          38       29

    Accounts payable                                                              3,543      3,228
    Federal employee and veterans benefits                                            7          8
    Other (Note 8)                                                                   18         32
    Total liabilities                                                             3,606      3,297
 Net position:
   Unexpended appropriations - other funds                                       13,322      8,056
   Cumulative results of operations - other funds                                   209        194
   Total net position                                                           $13,531     $8,250
 Total liabilities and net position                                             $17,137    $11,547

                   The accompanying notes are an integral part of these statements.


Note: (CY) denotes Current Year; (PY) denotes Prior Year.




                                                    Page 27
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Financial Statements




                                  Food and Nutrition Service
                                 STATEMENT OF NET COST
                  For the years ended September 30, 2006 (CY) and 2005 (PY)
                                         (in dollars/millions)

                                                                    FY 2006        FY 2005
Program costs:                                                         (CY)           (PY)
   Strategic Goals:
    Improve the Nation's Nutrition and Health:
       Gross costs (Note 10)                                        $53,451        $51,605
       Less: earned revenue                                              21             29
       Net program costs                                             53,430         51,576

Net cost of operations                                              $53,430        $51,576

                The accompanying notes are an integral part of these statements.




                                                 Page 28
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Financial Statements




                           Food and Nutrition Service
                    STATEMENT OF CHANGES IN NET POSITION
                          As of September 30, 2006 (CY) and 2005 (PY)
                                       (in dollars/millions)

                                                                 FY 2006          FY 2005
                                                                    (CY)             (PY)

                                                                 All Other        All Other
                                                                    Funds            Funds
Cummulative Results of Operations:
Beginning Balances                                                  $194             $285
Beginning balance, as adjusted                                       194              285

Budgetary Financing Sources:
  Appropriations Used                                             47,516           45,410
  Transfers in/out without Reimbursement                           5,203            5,168
  Other                                                                0               -1

Other Financing Sources (Non-Exchange):
  Imputed financing                                                   726              908

Total Financing Sources                                            53,445           51,485
Net Cost of Operations                                            -53,430          -51,576
Net Change                                                             15              -91

Cummulative Results of Operations                                     209              194

Unexpended Appropriations:
Beginning Balances                                                  8,056            8,579
Beginning balances, as adjusted:                                    8,056            8,579

Budgetary Financing Sources:
   Appropriations Received                                         53,813           47,398
   Other Adjustments                                               -1,031           -2,511
   Appropriations Used                                            -47,516          -45,410
   Total Budgetary Financing Sources                                5,266             -523
Total Unexpended Appropriations                                    13,322            8,056

Net Position                                                      13,531             8,250

               The accompanying notes are an integral part of these statements.




                                                 Page 29
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Financial Statements




                                Food and Nutrition Service
                         STATEMENT OF BUDGETARY RESOURCES
                    For the years ended September 30, 2006 (CY) and 2005 (PY)
                                          (in dollars/millions)

                                                                      FY 2006       FY 2005
                                                                         (CY)          (PY)
                                                                     Budgetary     Budgetary

Budgetary Resources:
Unobligated balance, brought forward, October 1:                         $7,108      $7,768
Recoveries of prior year unpaid obligations                                 797         391
Budget authority
   Appropriation                                                         53,813      47,398
   Spending authority from offsetting collections
    Earned
       Collected                                                              85         79
   Change in unfilled customer orders
        Without advance from Federal sources                                 1            0
 Subtotal                                                               53,899       47,477
Nonexpenditure transfers, net, anticipated and actual                    5,203        5,168
Permanently not available                                               -1,033       -2,511
Total Budgetary Resources                                              $65,974      $58,293

Status of Budgetary Resources:
Obligations incurred:
 Direct                                                                $53,530      $51,157
 Reimbursable                                                               27           28
 Subtotal                                                               53,557       51,185
Unobligated balance:
 Apportioned                                                              3,160         526
 Subtotal                                                                 3,160         526
Unobligated balance not available                                         9,257       6,582
Total status of budgetary resources                                      65,974      58,293


                         This statement is continued on the following page.




                                                 Page 30
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Financial Statements




                             Food and Nutrition Service
                  STATEMENT OF BUDGETARY RESOURCES, continued
                    For the years ended September 30, 2006 (CY) and 2005 (PY)
                                          (in dollars/millions)


Change in Obligated Balances:                                         FY 2006        FY 2005
Obligated balance, net
 Unpaid obligations, brought forward, October 1                          3,940         3,048
 Total unpaid obligated balance, net                                     3,940         3,048
Obligations incurred net (+/-)                                          53,557        51,185
Less: Gross outlays                                                    -52,533       -49,902
Recoveries of prior year unpaid
     obligations, actual                                                  -797          -391
Change in uncollected customer payments
        from Federal sources (+/-)                                           -1           0
Obligated balance, net, end of period
 Unpaid obligations                                                      4,166         3,940
 Less: Uncollected customer payments from
        Federal sources                                                     -1             0
 Total, unpaid obligated balance, net, end of period                     4,165         3,940
Net Outlays:
Net Outlays:
 Gross outlays                                                          52,533        49,902
 Less: Offsetting collections                                              -85           -79
 Net outlays                                                            52,448        49,823

                  The accompanying notes are an integral part of these statements.




                                                 Page 31
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                              Financial Statements




                                    Food and Nutrition Service
                                   STATEMENT OF FINANCING
                    For the years ended September 30, 2006 (CY) and 2005 (PY)
                                              (in dollars/millions)

                                                                                FY 2006   FY 2005
Resources Used to Finance Activities:                                              (CY)      (PY)
Budgetary Resources Obligated
 Obligations incurred                                                           $53,557   $51,185
 Less: Spending authority from offsetting collections and recoveries                883       470
 Obligations net of offsetting collections and recoveries                        52,674    50,715
 Net obligations                                                                 52,674    50,715
Other Resources
 Imputed financing from costs absorbed by others                                   726       908
 Net other resources used to finance activities                                    726       908

 Total resources used to finance activities                                      53,400    51,623

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided (+/-)                                              42       -137
Budgetary offsetting collections and receipts that do not affect net cost
 of operations
    Other                                                                           -14      105
 Resources that finance the acquisition of assets                                    -2       -2

 Total resources used to finance items not part of the net cost of operations       26        -34

 Total resources used to finance the net cost of operations                      53,426    51,589



                          This statement is continued on the following page.




                                                    Page 32
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                          Financial Statements




                                Food and Nutrition Service
                           STATEMENT OF FINANCING, continued
                   For the Years Ended September 30, 2006 (CY) and 2005 (PY)
                                       (in dollars/millions)


                                                                                FY 2006   FY 2005
Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                  -2        0
 Other (+/-)                                                                          1        0
 Total components of Net Cost of Operations that will require or generate
       resources in future periods                                                   -1        0
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                       3          0
 Revaluation of assets or liabilities (+/-)                                          0         -1
 Other (+/-)                                                                         2        -12
 Total components of Net Cost of Operations that will not require
      or generate resources                                                          5        -13

 Total components of Net Cost of Operations that will not require or generate
      resources in the current period                                                4        -13

 Net Cost of Operations                                                         $53,430   $51,576

                  The accompanying notes are an integral part of these statements.




                                               Page 33
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                       Notes to the Financial Statements




                                Notes to the Financial Statements
                           Amounts Shown in Millions Unless Otherwise Noted

   Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service (FNS),
   as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular A-136 dated July
   24, 2006. They have been prepared from the books and records of FNS in accordance with the
   Generally Accepted Accounting Principles (GAAP) hierarchy of accounting principles for the Federal
   Government. GAAP for Federal financial reporting entities recognizes the Federal Accounting
   Standards Advisory Board (FASAB) as the Standard setting body.

B. Reporting Entity

   FNS is under the jurisdiction of the Under Secretary for Food, Nutrition, and Consumer Services of the
   United States Department of Agriculture. FNS is headed by an administrator with overall policy
   formulated in the FNS headquarters in Alexandria, Virginia, and implemented through seven regional
   offices and 69 field offices, four food stamp compliance offices, one computer support center in
   Minneapolis, Minnesota; and one administrative review office. State departments of education have
   responsibility for food programs serving children in schools, child care centers, and summer recreation
   centers. State departments of health, welfare, and agriculture usually have responsibility for programs
   providing food stamp benefits or supplemental foods. For the FY 2006 financial statement presentation,
   data classified as “Other” is primarily comprised of Nutrition Program Administration (NPA)
   appropriations. A detailed description of the FNS programs is contained in the Management Discussion
   & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual method,
   revenues are recognized when earned and expenses are recognized when a liability is incurred, without
   regard to receipt or payment of cash. Budgetary accounting facilitates compliance with legal constraints
   and controls over the use of Federal funds. These financial statements include all funds for which the
   FNS is responsible and were prepared in accordance with the GAAP hierarchy of accounting principles
   for the Federal Government.

D. Accounts Receivable

   The $233 recognized as non-federal accounts receivable includes debts owed FNS by individuals,
   businesses, States and local governments. The largest single component of this item consists of Food
   Stamp Program recipient claims. States establish claims against households to recover overissued
   Food Stamp benefits after they confirm that such overissuance has taken place. They are then
   responsible for pursuing collection of such claims. Collections, less an authorized State retention
   amount, are remitted to FNS. The portion of total net realizable receivables consisting of Food Stamp
   recipient claims is the expected amount of such remittance from States. The data generated by the
   State systems of gross account receivables has been determined to be unreliable. Accordingly, FNS
   does not know what the State gross account receivable is. FNS does not have any alternative method
   for acquiring reliable State receivable information.

   FNS estimates net realizable Food Stamp accounts receivable through a regression-based statistical
   model. This model estimates future collections by the States, which the States will remit to the Federal


                                                   Page 34
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                    Notes to the Financial Statements




Government as of the end of the accounting period (Federal fiscal year) based on the actual Food
Stamp issuance and net claims collections for prior years. The forecasting model draws its predictive
power from the strong historical relationship between the level of Food Stamp Program benefit issuance
and the level of recipient claims collections by States. Applying the model to actual data covering the
periods FY 1984 through FY 2006, the model explains 96 percent of the variation in claims collections.
Historically, one-year-ahead collections projected by the model have proved to be accurate within
approximately 2 percent of actual net collections. Because the expected cash flow from collections of
such claims beyond one year is not expected to be material, FNS does not estimate collections after
the initial year or discount the estimate produced by the statistical model to its present value.

The Food Stamp Program has a system for monitoring and controlling program issuance called the
Quality Control (QC) system. It is an ongoing, comprehensive monitoring system required by the Food
Stamp Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
and “negative case actions” (terminations and denials of benefits), is chosen each month. State
officials review the sampled case records to measure and verify the accuracy of eligibility and benefits
determinations, made by State eligibility workers, against Program standards for the month under
review. QC errors detected through the review process include both underissuance and overissuance
to eligible households and issuance to households that are not eligible for benefits.

Because reliable data is not available addressing gross FNS accounts receivable, the FSP QC estimate
of FSP benefits overissued nationwide provide the best statistically valid estimate of invalid program
payments. Fiscal Year 2005 QC error rates were announced in June 2006. Using this methodology,
FNS estimates the value of benefit overissuance in Fiscal Year 2005 (the most recent year for which
data are available) at $1.294 billion. Statement of Federal Financial Accounting Standards (SFFAS) #1
permits Federal entities to estimate its accounts receivable. The QC error rate overissuance estimate
is considered the best estimate available. However, since this is an estimate of all FSP overpayments,
the actual State gross account receivable amount would be lower but the variance can not be
quantified. The amount of overissued food stamps is included in the total program cost of the Food
Stamp Program as reflected in the Statement of Net Cost. A material amount of the estimate would be
bad debt expense if the amount of this estimate pertaining to accounts receivable could be quantified.

FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
end of the fiscal year, therefore, current information is not available for the FY 2006 financial
statements. For FY 2005, three States were assessed liabilities for having excessive error rates for two
consecutive years. The aggregate total of the liability was $3.61. The three States signed payment
agreements in lieu of immediately repaying in cash. The agreements called for each State to invest 50
percent of its liability in program improvement activities. The remaining 50 percent of the liability was
placed at risk pending future improved performance.


      The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year               Rate Amount                       Total $ Bil.
               2005                      4.53 %                          $ 1.294
               2004                      4.48 %                          $ 1.103
               2003                      5.04 %                          $ 1.080




                                                Page 35
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                        Notes to the Financial Statements




E. Grants and Program Benefits

  FNS records grant obligations based on the grant awards and food stamp program benefits based on
  the issuance of benefits to recipients. Funds for FNS grant programs and food stamp electronic
  benefits transfer (EBT) benefits are provided to States through a Letter of Credit process. This process
  allows the grantees or the EBT processor to draw on established credit balances, as needed, to pay
  expenses associated with their grants or food stamp EBT transactions at retailers. This allows FNS to
  hold funds until the grantees need the funds to pay program expenses or until the food stamp EBT
  benefits are actually used. Expenses are recognized as grantees or EBT processors drawdown on the
  Letter of Credit.

F. Annual, Sick, and Other Leave

   Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
   balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent that
   current or prior year appropriations are not available to fund annual leave earned but not taken, funding
   will be obtained from future financing sources. Sick leave and other types of nonvested leave are
   expensed as taken.


G. Retirement Plan

   FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
   Employees Retirement System (FERS). FNS makes matching contributions to the CSRS total plan
   equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7 percent of pay. For most
   employees hired since December 31, 1983, FNS also contributes the employer's matching share for
   Social Security. FERS went into effect pursuant to Public Law 99-335 on January 1, 1987. Most
   employees hired after December 31, 1983, are automatically covered by FERS and Social Security. A
   primary feature of FERS is that it offers a savings plan to which FNCS automatically contributes 1
   percent of pay and matches any employee contribution up to an additional 4 percent of pay. FNS
   makes these and other contributions to employee retirement plans as shown in the following table:


                    FNCS RETIREMENT CONTRIBUTIONS (in millions)
    Type of Contribution                                          Amount
                                                              2006    2005
    CSRS/Transitional retirement contributions-Civil Service  $0.3    $0.3
    FERS regular contributions                                $7.0    $6.4
    Thrift Savings Plan contribution                          $2.7    $2.5
    TOTAL                                                     $10.0   $9.2

   These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
   CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
   employees. Reporting such amounts is the responsibility of the Office of Personnel Management's
   Federal Retirement System.

   Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
   Government, requires Federal entities to recognize an expense for pensions and other retirement
   benefits at the time the employee’s services are rendered. The purpose of recognizing this expense is
   to record and report the full cost of each entity’s operation. A corresponding revenue, Imputed
   Financing Sources, is recognized to the extent pension and other retirement benefit expenses exceed
   the amount paid to the Office of Personnel Management (OPM).




                                                    Page 36
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                     Notes to the Financial Statements




H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and multi-year
 appropriations. FNS recognizes appropriations as used at the time that program or administrative
 expenses are paid. FNS recognizes appropriations expended for capitalized property or equipment as
 expenses when the assets are purchased. Appropriations used is the amount of appropriations
 expended during the current period to fund FNS’ nutrition programs. This includes the NPA
 appropriation, which provides funds for salaries and administrative expenses.

 At the time grant awards are established, FNS records obligations for the full amount of expected
 program expenses as unexpended obligations-unpaid (undelivered orders). Reductions in unexpended
 obligations occur as expenses are incurred by grantees. At year-end, grant obligations are accrued
 and reflected on statements as accounts payable. At grant closeout, the unused portions of grant
 awards are deobligated, increasing the unobligated balances and are shown on the balance sheet as
 part of unexpended appropriations. Unobligated balances available for future periods are also shown
 as unexpended appropriations.

I. Fund Balance With Treasury Accounts

 The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
 Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
 Balance with Treasury is primarily appropriated funds.




                                                 Page 37
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                              Notes to the Financial Statements




Note 2. Non-Entity Assets
                                                                                     FY 2006         FY 2005
Intragovernmental:
  Fund balance with Treasury                                                                $3            $12
  Investments                                                                                -                 -
  Accounts Receivable                                                                        -                 -
  Loans Receivable                                                                           -                 -
  Other                                                                                      -                 -
Subtotal Intragovernmental                                                                   3             12
With The Public
  Cash and other monetary assets                                                             -                 -
  Accounts receivable                                                                       31             22
  Taxes receivable                                                                           -                 -
  Loan receivable and related foreclosed property                                            -                 -
  Inventory and related property                                                             -                 -
  Other                                                                                      -                 -
Subtotal With the Public                                                                    31             22


Total non-entity assets                                                                     34             34


Total entity assets                                                                  17,103             11,513


Total assets                                                                $        17,137      $      11,547




FNS’ Non-Entity Asset, “Fund Balance with Treasury” consists of funds held in FNS’ Suspense Account
and the Food Stamp Redemption Account. FNS’ Accounts Receivable consist of FNS’ Miscellaneous
Receipts, Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.


Note 3. Fund Balance with Treasury


Fund Balances:                                                                    FY 2006            FY 2005
   Trust Funds                                                              $                -   $             -
   Revolving Funds                                                                           -                 -
   Appropriated Funds                                                                 16,582            11,046
   Other Fund Types                                                                          3             12
Total                                                                                 16,585            11,058


Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                                           3,160              526
   Unavailable                                                                         9,258             6,582
Obligated Balance not yet Disbursed                                                    4,165             3,940
Clearing Account Balances                                                                    2             10
Borrowing Authority not yet Converted to Fund Balance                                        -                 -
Total                                                                       $         16,585     $      11,058




                                                          Page 38
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                       Notes to the Financial Statements




 Note 4. Accounts Receivable, Net


                                Gross                   Allowance for               Accounts
                                Accounts                Uncollectible               Receivable, Net
            FY 2006             Receivable              Accounts
    Intragovernmental                            $0                        $0                        $0
    With the Public                            $ 238                       $5                      $ 233
   Total                                       $ 238                       $5                      $ 233



                                Gross                   Allowance for               Accounts
                                Accounts                Uncollectible               Receivable, Net
            FY 2005             Receivable              Accounts
    Intragovernmental                             $0                       $0                        $0
    With the Public                            $ 214                       $3                      $ 211
   Total                                       $ 214                       $3                      $ 211


 (1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.




Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10 years,
using the straight-line method. For FY 2006 FNS’ capitalization threshold for property and equipment is
$25 thousand. FNS’ capitalization threshold for internal-use software is $100 thousand. FNS owns no
buildings or land. FNS follows recognition and measurement criteria in SFFAS No. 6 as amended by
SFFAS No. 11, 16, and 23 and USDA Departmental Regulation 2200-002, dated December 24, 2003. At
year end, balances for Property, Plant, and Equipment were as follows:




                                                   Page 39
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                               Notes to the Financial Statements




FY 2006                                       Useful                                                                     Net
                                               Life                                    Accumulated                      Book
Category                                      (Years)           Cost                   Depreciation                     Value


Land and Land Rights                                    $                -        $                        -       $             -
Improvements to Land                                                          -                                -                      -
Construction-in-Progress                                                      -                                -                      -
Buildings, Improvements and Renovations                                       -                                -                      -
Other Structures and Facilities                                               -                                -                      -
Equipment                                      5-10                          3                                 2                     1
Assets Under Capital Lease                                                    -                                -                      -
Leasehold Improvements                                                        -                                -                      -
Internal-Use Software                           5                            31                                7                     24
Internal-Use Software in Development                                          -                                -                      -
Other Natural Resources                                                       -                                -                      -
Other General Property, Plant and Equipment                                   -                                -                      -
  Total                                                 $                    34   $                            9   $                 25




FY 2005                                       Useful                                                                     Net
                                               Life                                    Accumulated                      Book
Category                                      (Years)           Cost                   Depreciation                     Value


Land and Land Rights                                    $                -        $                        -       $             -
Improvements to Land                                                          -                                -                      -
Construction-in-Progress                                                      -                                -                      -
Buildings, Improvements and Renovations                                       -                                -                      -
Other Structures and Facilities                                               -                                -                      -
Equipment                                      5-10                          4                                 3                     1
Assets Under Capital Lease                                                    -                                -                      -
Leasehold Improvements                                                        -                                -                      -
Internal-Use Software                           5                         30                                   5                 25
Internal-Use Software in Development                                          -                                -                      -
Other Natural Resources                                                       -                                -                      -
Other General Property, Plant and Equipment                                   -                                -                      -
  Total                                                 $                 34      $                            8   $             26




Note 6. Other Assets

                                                                                      FY 2006                          FY 2005
Intragovernmental:
   Advances to Others                                                             $            -       $                                  -
   Prepayments                                                                                  -                                       -
   Other Assets                                                                               294                                     252
Subtotal Intragovernmental                                                                    294                                     252

With the Public:
  Advances to Others                                                                               -                                          -
  Prepayments                                                                                      -                                          -
  Other Assets                                                                                     -                                          -
Subtotal With the Public                                                                           -                                          -


Total Other Asssets                                                               $           294      $                              252



  FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity
  Credit Corporation for the purchase of commodities.




                                                            Page 40
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                                     Notes to the Financial Statements




Note 7. Liabilities Not Covered by Budgetary Resources



  Intragovernmental:                                                                     FY 2006         FY 2005
     Accounts payable                                                           $             -      $       -
     Debt                                                                                        -              -
     Other                                                                                       -              -
  Subtotal Intragovernmental                                                                     -              -
  With the Public:                                                                               -              -
  Accounts Payable                                                                               -              -
  Debt held by the public                                                                        -              -
  Federal employee and veterans' benefits                                                        7              8
  Environmental and disposal liabilities                                                         -              -
  Benefits due and payable                                                                       -              -
  Other                                                                                         10             11
  Subtotal With the Public                                                                     17             19


  Total liabilities not covered by budgetary resources                                         17             19


  Total liabilities covered by budgetary resources                                          3,589          3,278

  Total liabilities                                                             $           3,606    $     3,297



 FNS’ “With the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.




                                                                 Page 41
                          FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                                       Notes to the Financial Statements




Note 8. Other Liabilities

FY 2006                                                                Non-Current         Current         Total
Intragovernmantal:
  Contract Holdbacks                                         $                -       $       -        $    -
  Other Accrued Liabilities                                                       -                4             4
  Employer Contributions and Payroll Taxes                                        -                1             1
  Other Post-Employement Benefits Due and Payable                                 -                -             -
  Unfunded FECA Liability                                                         -                1             1
  Other Unfunded Employment Related Liability                                     -                -             -
  Advances from Others                                                            -                -             -
  Deferred Credits                                                                -                -             -
  Liability for Deposit Funds, Clearing Accounts                                  -                1             1
  Contingent Liabilities                                                          -                -             -
  Capital Lease Liability                                                         -                -             -
  Liability for Subsidy Related to Undisbursed Loans                              -                -             -
  Accounts Payable from Canceled Appropriations                                   -                -             -
  Resources Payable to Treasury                                                   -                -             -
  Custodial Liability                                                             -               31            31
  Other Liabilities                                                               -                -             -
Subtotal Intragovernmental                                                        -               38            38

With the Public:
  Contract Holdbacks                                                              -                -             -
  Other Accrued Liabilities                                                       -                5             5
  Accrued Funded Payroll and Leave                                                -                -             -
  Withholdings Payable                                                            -                -             -
  Employer Contributions and Payroll Taxes Payable                                -                -             -
  Other Post-Employment Benefits Due and Payable                                  -                -             -
  Pension Benefits Due and Payable to Beneficiaries                               -                -             -
  Benefit Premiums Payable to Carriers                                            -                -             -
  Life Insurance Benefits Due and Payable                                         -                -             -
  Unfunded Leave                                                                  -               10            10
  Other Unfunded Employment Related Liability                                     -                -             -
  Advances from Others                                                            -                2             2
  Deferred Credits                                                                -                -             -
  Liability for Deposit Funds, Clearing Accounts                                  -                1             1
  Prior Liens Outstainding or Acquired Collateral                                 -                -             -
  Contingent Liabilities                                                          -                -             -
  Capital Lease Liability                                                         -                -             -
  Accounts Payable from Canceled Appropriations                                   -                -             -
  Custodial Liability                                                             -                -             -
  Other Liabilities                                                               -                -             -
Subtotal With the Public                                                          -               18            18

Total Other Liabilities                                      $                    -   $           56   $        56




                                                                   Page 42
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                                        Notes to the Financial Statements



FY 2005                                                                   Non-Current       Current        Total
Intragovernmantal:
   Contract Holdbacks                                         $                  -      $      -       $    -
   Other Accrued Liabilities                                                       4               -         4
   Employer Contributions and Payroll Taxes                                        1               -         1
   Other Post-Employement Benefits Due and Payable                                 -               -         -
   Unfunded FECA Liability                                                         1               -         1
   Other Unfunded Employment Related Liability                                     -               -         -
   Advances from Others                                                            -               -         -
   Deferred Credits                                                                -               -         -
   Liability for Deposit Funds, Clearing Accounts                                  -               -         -
   Contingent Liabilities                                                          -               -         -
   Capital Lease Liability                                                         -               -         -
   Liability for Subsidy Related to Undisbursed Loans                              -               -         -
   Accounts Payable from Canceled Appropriations                                   -               -         -
   Resources Payable to Treasury                                                   -               -         -
   Custodial Liability                                                            22               -        22
   Other Liabilities                                                               -               -         -
Subtotal Intragovernmental                                                        28               -        28


With the Public:
  Contract Holdbacks                                                               -               -         -
  Other Accrued Liabilities                                                        6               -         6
  Accrued Funded Payroll and Leave                                                 -               -         -
  Withholdings Payable                                                             -               -         -
  Employer Contributions and Payroll Taxes Payable                                 -               -         -
  Other Post-Employment Benefits Due and Payable                                   -               -         -
  Pension Benefits Due and Payable to Beneficiaries                                -               -         -
  Benefit Premiums Payable to Carriers                                             -               -         -
  Life Insurance Benefits Due and Payable                                          -               -         -
  Unfunded Leave                                                                  11               -        11
  Other Unfunded Employment Related Liability                                      -               -         -
  Advances from Others                                                             2               -         2
  Deferred Credits                                                                 -               -         -
  Liability for Deposit Funds, Clearing Accounts                                  12               -        12
  Prior Liens Outstainding or Acquired Collateral                                  -               -         -
  Contingent Liabilities                                                           -               -         -
  Capital Lease Liability                                                          -               -         -
  Accounts Payable from Canceled Appropriations                                    -               -         -
  Custodial Liability                                                              -               -         -
  Other Liabilities                                                                -               -         -
Subtotal With the Public                                                          31               -        31


Total Other Liabilities                                       $                   59    $          -   $    59




                                                                    Page 43
             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                 Notes to the Financial Statements




Note 9. Program Cost and Exchange Revenue


    Child Nutrition                               FY 2006              FY 2005

    Intragovernmental Costs                 $                  9   $             12
    Public Costs                            $             12,650   $         12,216
    Total Costs                             $             12,659   $         12,228

    Intragovernmental Earned Revenue        $                  -   $                 -
    Public Earned Revenue                   $                  -   $                 -
    Total Earned Revenue                    $                  -   $                 -

    Food Stamp

    Intragovernmental Costs                 $                 19   $             21
    Public Costs                            $             34,473   $         32,824
    Total Costs                             $             34,492   $         32,845

    Intragovernmental Earned Revenue
    Public Earned Revenue                   $                18    $                24
    Total Earned Revenue                    $                18    $                24

    Other                                         FY 2006               FY 2005

    Intragovernmental Costs                 $                 93   $               201
    Public Costs                            $                181   $                80
    Total Costs                             $                274   $               281

    Intragovernmental Earned Revenue        $                  1   $                 3
    Public Earned Revenue                   $                  -   $                 1
    Total Earned Revenue                    $                  1   $                 4


    Women, Infants & Children

    Intragovernmental Costs                 $                  1   $                  1
    Public Costs                            $              5,158   $              5,215
    Total Costs                             $              5,159   $              5,216

    Intragovernmental Earned Revenue
    Public Earned Revenue                   $                  -   $                 (1)
    Total Earned Revenue                    $                  -   $                 (1)




                                                Page 44
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                                   Notes to the Financial Statements




        Commodity Assistance Program                                FY 2006                         FY 2005

        Intragovernmental Costs                                $                 663       $                       856
        Public Costs                                           $                 204       $                       179
        Total Costs                                            $                 867       $                     1,035

        Intragovernmental Earned Revenue                       $                      2    $                            2
        Public Earned Revenue                                  $                      -    $                            -
        Total Earned Revenue                                   $                      2    $                            2


FNS’ intragovernmental costs are exchange transactions made between FNS and another entity
within the Federal government. FNS cost with the public are exchange transactions made between FNS
and a non-Federal entity. FNS’ intragovernmental exchange revenues are exchange transactions
made between FNS and another entity within the Federal government. FNS exchange revenues with the
public are exchange transactions made between FNS and a non-Federal entity.


Note 10. Program Costs By Segment
For the year ended September 30, 2006


                                                                           Women      Commodity
                                                                          Infants &   Assistance
                                        CHILD NUTRITION   FOOD STAMP      Children     Program     OTHER       Consolidated Total



    Total Gross Costs                            12,659        34,492        5,159           867       274                  53,451

    Less Earned Revenue:                              0              18           0            2           1                   21

    Net Goal Costs:                              12,659        34,474        5,159           865       273                  53,430


    Net Cost of Operations                                                                                                  53,430




CONSOLIDATING STATEMENT OF NET COST
For the year ended September 30, 2005


                                                                           Women      Commodity
                                                                          Infants &   Assistance
                                        CHILD NUTRITION   FOOD STAMP      Children     Program     OTHER       Consolidated Total



    Total Gross Costs                            12,228        32,845        5,216         1,035       281                  51,605

    Less Earned Revenue:                              0              24          -1            2           4                   29

    Net Goal Costs:                              12,228        32,821        5,217         1,033       277                  51,576


    Net Cost of Operations                                                                                                  51,576




                                                                   Page 45
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                           Notes to the Financial Statements




Note 11. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists of $21.2 from the state option food stamp program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option food stamp program (SOFSP). In this program, States issue
food stamp benefits through the Federal government for use in a State-funded food assistance program
for legal immigrants, and childless, able-bodied adults ineligible for the Food Stamp Program.

States operating a SOSFP utilize FNS’ FSP infrastructure. That is, they utilized electronic benefits
transfer (EBT) issued benefits from FNS which are transacted at FNS authorized FSP retailers. These
benefits are subsequently redeemed through the Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2006, 3 States participated
in this program, which generated earned revenues of $21.2.



Note 12. Apportionment Categories of Obligations Incurred: Direct vs Reimbursable Obligations

     FY 2006                                                    Direct                Reimbursable             Total
Approtionment by Fiscal Quarter                       $                  53,530   $                   27   $           53,557
Approtionment for Special Activities                                          -                        -                    -
Exempt from Apportionment                                                     -                        -                    -
Total Obligations Incurred                            $                  53,530   $                   27   $           53,557




     FY 2005                                                    Direct                Reimbursable             Total
Approtionment by Fiscal Quarter                       $                  51,157   $                   28   $           51,185
Approtionment for Special Activities                                          -                        -                    -
Exempt from Apportionment                                                     -                        -                    -
Total Obligations Incurred                            $                  51,157   $                   28   $           51,185




Note 13.Explanation of Differences Between the Statement of Budgetary Resources and the Budget of
the United States Government

Differences exist between FNS’ FY 2005 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2005 actual numbers presented in the FY 2007
Budget of the United State Government (Budget). These differences are summarized below:

           Description                     Budgetary Resources                               Outlays
           2005 SBR                             $58,293                                      $49,823
 Less: Expired Accounts not                       $4,965
 Included in Budget
 Add: Parent Child Relationship                            $5                                        $5
 (CREES)
 Add: Differences due to                                   $4                                        $1
 Rounding
 Budget of the U.S.                                $53,337                                   $49,829
 Government




                                                          Page 46
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                             Notes to the Financial Statements




Note 14. Undelivered Orders at the end of the Period

For the FY 2006 Financial Statements the amount of budgetary resources obligated for undelivered
orders at the end of period amounted to $604.


Note 15. Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources
on the Balance Sheet and the Change in Components Requiring or Generating Resources in Future
Periods on the Statement of Financing


Current year liabilities not covered by budgetary resources                        $ 17
as disclosed in Note 7.

Prior year liabilities not covered by budgtary resources                            (19)
Increase (Decrease) in liability not covered by budgetary resources                $ (2)

Upward/Downward Reestimates of Credit Subsidy Expense                                  0

Increase in Exchange Revenue Receivable from the Public                                0

Other                                                                                  1

Components requiring or generating resources in future periods,
as reported on the Statement of Financing                                           $ (1)


Note 16. Incidental Custodial Collections


Revenue Activity:                                                                FY 2006            FY 2005
  Sources of Collections:
  Miscellaneous                                                           $            (18) $                 (19)
Total Cash Collections                                                                 (18)                   (19)
Accrual Adjustments                                                                         8                 12
Total Custodial Revenue                                                                (10)                    (7)
Disposition of Collections:
Transferred to Others:
    Treasury                                                                                -                  -
    States and Counties                                                                     -                  -
( Increase )/Decrease in Amounts Yet to be Transferred                                     10                  7
Refunds and Other Payments                                                                  -                  -
Retained by the Reporting Entity                                                            -                  -
Net Custodial Activity                                                    $                 -   $               -


FNS’ FY 2006 custodial activity represents all accounts receivable activity related to canceled year
appropriations for interest, fines & penalties assessed and collected. For example, civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of
FNS.



                                                         Page 47
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2006
                                 Required Supplementary Stewardship Information




                               FOOD AND NUTRITION SERVICE
                    REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                STEWARDSHIP INVESTMENTS
                               (Amounts shown are in millions)


Human Capital

1. A. Food Stamp Program

     B. Program Expense                               2006         2005

        1. Employment and Training                     $66          $49

FNS’ human capital consists of employment and training (E&T) for the Food Stamp Program. The E&T
program requires recipients of food stamp benefits to participate in an employment and training program
as a condition to food stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 781,543 work registrants subject to the 3 - month Food Stamp Program participant
limit and 1,203,142 work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.


Nonfederal Physical Property

1. A. Food Stamp Program

      B. Program Expense                             2006        2005

         1. ADP Equipment & Systems                   $21         $22


FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the
State and local governments for the purpose of administering the Food Stamp Program. The total Food
Stamp Program Expense for ADP Equipment & Systems has been reported as of the date of FNS’
financial statements.


2.    A. Special Supplemental Nutrition Program for Women, Infants and Children

      B. Program Expense                             2006        2005

         1. ADP Equipment & Systems                   $12         $17


FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by
the State and local governments for the purpose of administering the Special Supplemental Nutrition
Program for Women, Infants and Children (WIC).




                                                    Page 48
Informational copies of this report have been distributed to:

Agency Liaison Officer
General Accounting Office (1)
Office of Management and Budget (1)
For Food and Nutrition Services
 Director, FNS Accounting Division (1)
